<html>
<title> - THE DEPARTMENT OF ENERGY'S PROPOSED BUDGET FOR FISCAL YEAR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




    THE DEPARTMENT OF ENERGY'S PROPOSED BUDGET FOR FISCAL YEAR 2001

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 24, 2000

                               __________

                           Serial No. 106-139

                               __________

            Printed for the use of the Committee on Commerce

                    U.S. GOVERNMENT PRINTING OFFICE
64-032CC                    WASHINGTON : 2000




                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    TOM SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
                                     BILL LUTHER, Minnesota
                                     LOIS CAPPS, California

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                    Subcommittee on Energy and Power

                      JOE BARTON, Texas, Chairman

MICHAEL BILIRAKIS, Florida           RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               KAREN McCARTHY, Missouri
  Vice Chairman                      TOM SAWYER, Ohio
STEVE LARGENT, Oklahoma              EDWARD J. MARKEY, Massachusetts
RICHARD BURR, North Carolina         RALPH M. HALL, Texas
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
CHARLIE NORWOOD, Georgia             SHERROD BROWN, Ohio
TOM A. COBURN, Oklahoma              BART GORDON, Tennessee
JAMES E. ROGAN, California           BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ALBERT R. WYNN, Maryland
HEATHER WILSON, New Mexico           TED STRICKLAND, Ohio
JOHN B. SHADEGG, Arizona             PETER DEUTSCH, Florida
CHARLES W. ``CHIP'' PICKERING,       RON KLINK, Pennsylvania
Mississippi                          JOHN D. DINGELL, Michigan,
VITO FOSSELLA, New York                (Ex Officio)
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Glauthier, Hon. T.J., Deputy Secretary of Energy, U.S. 
      Department of Energy.......................................     8
Material submitted for the record by:
    Angell, John C., Assistant Secretary, Congressional and 
      Intergovernmental Affairs, Department of Energy, letter 
      dated September 8, 2000, enclosing response for the record.    48

                                 (iii)

  

 
    THE DEPARTMENT OF ENERGY'S PROPOSED BUDGET FOR FISCAL YEAR 2001

                              ----------                              


                         FRIDAY, MARCH 24, 2000

                  House of Representatives,
                             Committee on Commerce,
                          Subcommittee on Energy and Power,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2322, Rayburn House Office Building, Hon. Joe Barton 
(chairman) presiding.
    Members present: Representatives Barton, Burr, Whitfield, 
Norwood, Markey, and Strickland.
    Staff present: Kevin Cook, science advisor; Miriam Swydan 
Erickson, majority counsel; Elizabeth Brennan, legislative 
clerk; Sue Sheridan, minority counsel; and Rick Kessler, 
professional staff member.
    Mr. Barton. The Energy and Power Subcommittee on the 
hearing of the Department of Energy's budget, fiscal year 2001 
is ready to begin. I guess this is appropriate since we passed 
the budget last night, or in the morning, actually, about 12:15 
but we are at least holding the hearing on the same day.
    We have recently held a hearing on the dramatic increase in 
the price of crude oil and petroleum products. We did that 
several weeks ago. We heard testimony on the multiple causes 
for the increase, whether the Department of Energy had 
adequately forecasted the increase and how to help homeowners 
pay their home heating oil bills. Today we should remember that 
the Department of Energy has responsibility for administering 
all of the U.S. energy policy. I believe the most important 
energy issue facing the United States today is the advancement 
of electricity restructuring which this subcommittee has passed 
legislation on back in October. I know that bringing full 
competition to the electric sector is a priority for the 
committee. It is good for consumers, and that is what is 
important to me and to this subcommittee. I hope we can all 
work together today and next week in the next month, several 
months, to enact a comprehensive electric restructuring 
program.
    Today we are going to examine the Department of Energy's 
original mission to promote all energy security. Over the 
years, the department's focus has shifted to environmental 
management and national security. Only 12 percent, or $2.2 
billion is spent on energy resources of the department's 
budgets today. I will let everybody know why I am laughing here 
in a minute.
    This reverses the trend of the last 2 years when the 
agency's budget request was declining. This hearing should 
provide members an opportunity to voice any concerns they may 
have about the department's shift in focus in funding. I look 
forward to hearing the testimony of the distinguished deputy 
secretary. And we will continue with the hearing.
    Does Mr. Norwood wish to make an opening statement?
    Mr. Norwood. Yes, sir.
    Mr. Barton. The Chair would recognize you pending the 
arrival of Mr. Strickland.
    Mr. Norwood. Thank you, Mr. Chairman. I want you to know 
that--I will wait until he is listening.
    Mr. Barton. I am listening.
    Mr. Norwood. I just want to point out to you that in 
Georgia this morning the dogwoods are in bloom, the azaleas are 
wide open, there is honeysuckle in the air and with that, I 
would like to thank you so much for holding this hearing this 
morning.
    Mr. Barton. Well, now would the gentleman yield?
    Mr. Norwood. Of course.
    Mr. Barton. The gentleman knows that we were here until 
12:15 this morning, so unless the gentleman from Georgia got up 
at the crack of dawn and caught the 6 a.m. flight to Atlanta 
and then drove for several hours, he wouldn't be smelling the 
honeysuckle or seeing the sunrise over----
    Mr. Norwood. I would be there right now. But in all 
seriousness--I am kidding. I am pleased that you are having 
this hearing today on the Department of Energy's budget 
proposal for the fiscal year 2001. It gives me an opportunity 
to make a couple of points. As you know, my district is 
contiguous to the Savannah River site, the most impressive 
field site in the DOE complex. Roughly, 8,000 of my 
constituents currently work at this site, which has been a 
vital part of our community since World War II. And we consider 
them as co warriors.
    I spent my first few years in Congress fighting the layoffs 
that were inevitable as a result of the end of the cold war. 
And I now want to make absolutely sure that our site is not 
only properly equipped to clean up after 40 years of serving 
the country from the defense buildup, but also is prepared to 
take on any new missions that it might be qualified to handle.
    I am pleased to see that the DOE's environmental management 
budget for fiscal year 2001 looks good. I would like to 
reiterate the concerns, Mr. Secretary, that I have repeatedly 
and repeatedly expressed about the department's selection of a 
commercial plant at the Tennessee Valley Authority for the 
proposed tritium production facility. I have it on good source 
that the Vice President doesn't like all these activities, and 
he certainly probably really doesn't want it in Tennessee. We 
have always maintained, and I will say it again here today, the 
production of tritium for use in nuclear weapons is too 
sensitive of an issue to risk leaving it in the hands of a 
commercial plant. This is not a matter of my protecting my turf 
or bringing missions home. This is a matter, in our view, of 
national security.
    Simply stated, the people at the Savannah River site have 
the expertise, they have the secure infrastructure to do this. 
We have the safety record to ensure that the production of 
tritium is carried out in a safe and secure manner. And I would 
urge you to urge--in fact, Vice President Gore and I would urge 
you to urge the Secretary to rethink his decision in this 
matter.
    My other concerns today involve around the ongoing saga of 
the Clinton's administration unwillingness to accept this 
responsibility to deal with our country's spent fuel problem. I 
said on the floor yesterday that I am deeply, deeply concerned 
that the President is playing political games with a very 
dangerous issue. We need to come, we need to come to some 
resolution on what we are going to do with the tons of nuclear 
waste, much of which is in my back yard, that is, accumulating 
at 72 sites around this Nation.
    I know that Secretary Richardson has considerable in 
influence with the President on this issue. I also know that 
the Secretary realizes the need for urgency. And I want to urge 
you to urge Mr. Richardson to put partisan politics aside on 
this and do what he knows in his heart is the right thing to do 
for this country.
    Mr. Chairman, with that, I will button up and yield back 
the balance of my time.
    Mr. Barton. Well, you just missed one flight to Georgia due 
to the length of that opening statement. The Chair has a 
confession to make. I rushed in here to start the hearing close 
to on time and managed to read the statement of Tom Bliley as 
my opening statement. So I was about two-thirds of the way 
through it before the staff managed to convey to me that it was 
not my opening statement, it was Chairman's Bliley's.
    Mr. Norwood. Come on, Mr. Chairman, read us yours.
    Mr. Barton. No, I will submit my statement for the record.
    [The prepared statement of Hon. Joe Barton follows:]
Prepared Statement of Hon. Joe Barton, Chairman, Subcommittee on Energy 
                               and Power
    We are here today to examine the Department of Energy's budget 
request for Fiscal Year 2001. This budget hearing is not just about how 
much money the Department wants to spend next year, but also about 
understanding the policies behind the numbers.
    The Department has submitted an ambitious proposal, seeking a total 
of $18.9 billion for FY2001. This represents an increase of over nine 
percent from the comparable appropriations for the current fiscal year. 
The Department needs to justify to us the reason for this substantial 
increase. We also need to find out whether DOE is adhering to our 
previous guidance and is making progress on a number of energy issues 
that are of particular importance to the Members of this Subcommittee.
     At this same hearing last year, I said that nuclear waste was at 
the top of my priority list. It still is at the top of my list, sharing 
that spot with electricity restructuring. If anything, my frustration 
with the Department on the nuclear waste issue has grown even stronger. 
Although I disagreed with the Senate bill that came before the House 
earlier this week, the final vote shows that a substantial majority of 
Members in both chambers support the partial solution to nuclear waste 
provided in Senate bill 1287. Members from both sides of the aisle made 
a sincere attempt to solve this national problem, and all this 
Administration would contribute to the debate was one more 
irresponsible veto threat.
    Secretary Richardson testified to this Subcommittee last year that 
the permanent repository program, even without additional features such 
as interim storage or take title, faces a serious funding shortfall in 
the coming fiscal years. The program needs over $10 billion for the 
repository between now and 2010, but will be lucky to receive even half 
of that amount under the current funding scheme. We offered a solution 
to that problem by using the money that the ratepayers have already 
paid in to the Nuclear Waste Fund--and, again, all we heard from the 
Administration was another veto threat.
    I keep looking for this Administration to offer its own 
constructive solution to the funding problem, but the 2001 budget 
request continues to ignore the situation. It is time for the 
Department to be honest with the Congress and the American people about 
this situation--without a major change in how the nuclear waste program 
is funded, the permanent repository will not open in 2010.
    Meanwhile, spent fuel continues to accumulate at reactor sites 
around the country, and the financial liability against the Federal 
government grows larger every day. And we have before us another DOE 
budget request that addresses only the next fiscal year, conveniently 
ignoring the disaster looming around the corner. I guess Yogi Berra 
must have had nuclear waste in mind when he talked about this being 
``deja vu all over again.''
    I have several other serious matters to discuss with the 
Department, starting with the Department's obvious lack of success in 
forecasting the recent fluctuations in oil prices. I welcome any 
comments from the witness concerning improvements the Department is 
contemplating to this vital forecasting role.
    I was very disappointed that Secretary Richardson discouraged a 
bipartisan delegation of Commerce Committee Members from going to 
Vienna for next Monday's meeting of OPEC countries. I question both the 
wisdom and intent of asking our Members, who have many different views 
on domestic energy policy, to not attend this important meeting and 
represent the United States Congress.
    As you know by now, this Subcommittee is very concerned about the 
implementation of the new National Nuclear Security Administration and 
whether this new organization will really solve the safety and security 
problems facing the Department. I also have concerns about the major 
expansion of research and development work on climate change. While I 
am supportive of more R&D on climate change and have introduced 
legislation to that end, we all need to make sure that the Department 
is not getting out ahead of the Kyoto Protocol.
    The DOE also requests $450 million to start the Hanford 
privatization contract, an effort which will take 20 years to complete 
and require more than $500 million per year. Unfortunately, DOE has not 
demonstrated any credible track record with other privatization 
projects, such as the failed Pit 9 effort that the Committee revealed 
in 1997. DOE must get on with the cleanup at Hanford, but the 
Department has not demonstrated that the proposed Hanford privatization 
contract offers the best value to the US Government.
    We can address these matters in more detail during the question-
and-answer period. I welcome Mr. Glauthier before the Committee and 
look forward to your testimony.

    Mr. Barton. I wouldn't put the Secretary through that. But 
I do have a very good opening statement. The Chair would 
recognize the distinguished gentleman from Ohio for an opening 
statement.
    Mr. Strickland. Thank you, Mr. Chairman. My opening 
statement will not be long, and I am anxiously awaiting a time 
when we can direct questions to our guest this morning. Mr. 
Deputy Secretary, I want to thank you for coming and I want to 
thank you, and I especially want to thank Secretary Richardson 
for the obvious concern that he has shown to me and to my 
constituents. Later on, I will have questions for you. I have 
read your testimony. But I just want to say for the record, I 
think it is important for me to say that I have been deeply, 
deeply disappointed with some of the actions of the department. 
In my district we are facing a crisis situation, but I think it 
is going beyond my district.
    I think it involves my colleague from Kentucky's district, 
and I think it involves this Nation's economic security, and it 
involves this Nation's national security. We privatize this 
vital industry, the uranium enrichment industry. Jobs have been 
lost as a result, 250 jobs at my plant last year, 250 at my 
colleague's plant and 825 to 850 jobs will be lost between the 
two plants in July of this year. Some of the same Wall 
Streeters who advocated and pushed for the privatization of 
this industry are now advocating for the closure of one of our 
two plants. These are very, very serious circumstances. I think 
we have a uranium enrichment corporation now that is worth more 
dead than alive. And I worry about the potential of this 
domestic industry being so decimated that we will find 
ourselves without a reliable supply of domestic energy, 
domestic fuel for our nuclear power plants, thereby making us 
ever increasingly more reliant upon foreign sources for our 
national energy needs. And so I welcome you here. I look 
forward to your testimony. And I look forward to an opportunity 
to direct some questions to you. Thank you very much.
    Mr. Barton. Thank you, Congressman Strickland.
    Congressman Whitfield, for an opening statement.
    Mr. Whitfield.  Thank you, Mr. Chairman. And once again we 
are always impressed with how organized you are.
    Mr. Barton. At least I am honest.
    Mr. Whitfield. And I just would like to echo Mr. 
Strickland's remarks because we do have some common challenges 
facing us, Mr. Glauthier, and I am glad you are here today. I 
would say that there will obviously be additional hearings on 
the United States Enrichment Corporation and its impact on 
enrichment of uranium as a guaranteed source for domestic 
production.
    I do have a number of questions which we will get to, but I 
would like to thank Secretary Richardson for, I think, 
responding in an admirable way to many of the questions raised 
by The Washington Post which has been running repeated articles 
about these gaseous diffusion plants. I will say that the 
overall amount of $109 million in this year's budget request is 
nearly double what you proposed in the past. And that is going 
to be for cleanup activities, $78 million, $23.9 million for 
uranium hexafluoride conversion, $4.3 million for environmental 
health and safety studies and medical monitoring, which is 
vitally important, and $3 million for worker transition 
programs. But I know Mr. Strickland and I both have some other 
very serious concerns, and so we are delighted you are here 
today and look forward to talking to you as we go along.
    Mr. Barton. Thank the gentleman from Kentucky. The 
gentleman from North Carolina.
    Mr. Burr. Thank you, Mr. Chairman. Clearly, I am not as 
organized as you are, so I would ask unanimous consent to give 
your opening statement.
    Mr. Barton. I will hand it down there.
    Mr. Burr. In that would be in order. Let me welcome 
Department of Energy and apologize for my casual clothes, but 
this is travel day. And that is probably a good sign for you 
that I do have a flight. Let me just say that having an 
opportunity to read two different testimonies because of the 
delay of this hearing, I was glad to see that there were some 
things that were added that specifically address the 
secretary's negotiations with OPEC and other items that I think 
are pertinent to at least our current crisis.
    Given that we are looking at an annual budget, I expected 
to see more specifics about domestic policy, production policy 
and initiatives that the department wanted to see implemented 
in that budget year. I am hopeful that as you answer questions 
and expound on your testimony, that, in, fact we will hear some 
of the specifics that I didn't find in the written testimony.
    I will say that for many members on this committee, I was 
delighted to see that we have similar hopes of electricity 
deregulation sooner rather than later. And we will look for 
every opportunity to explore everything that has happened at 
the Department of Energy to reach some conclusion on 
deregulation. And with that, I thank you once again and I yield 
back, Mr. Chairman.
    Mr. Barton. Thank you. Before we recognize the Secretary 
for such time as he may consume, I want to just briefly 
summarize what my lengthy opening statement says. We have three 
concerns. No. 1, you have got a substantial increase in your 
budget request this year. And I think the committee needs to 
have some justification for a 9 percent increase. Number 2, the 
nuclear waste policy of the Department of Energy continues to 
be a mystery. It is going to cost $10 billion to build a 
depository and have it operational by the year 2010, and the 
department insists on continuing to funding requests in the 
$400 million-per-year range. I think you are up $37 million. It 
just doesn't work. You know that I know that. We don't need 
veto threats, we need cooperation between the executive branch 
and the legislative branch to find a solution. And then on the 
energy, the oil policy problem that we are having, the higher 
oil and gasoline prices, the department quite frankly has been 
asleep at the switch. Congressman Markey pointed out several 
weeks ago that the Energy Information Agency, which is a 
semiautonomous part of DOE was projecting as early as last June 
and officially with retail price projections in October of this 
past year what really happened. And the department really did 
nothing to even begin to address the problem until December and 
January. So we will have some questions on that.
    And in trying to cooperate, this subcommittee requested to 
go to OPEC this weekend, take a bipartisan congressional 
delegation. The State Deputy strongly discouraged it. Secretary 
Richardson initially seemed to be open to it in a phone 
conversation but his official letter opposed it. When I had to 
inform the minority of that, they felt, rightfully so, that if 
the administration wasn't participating we shouldn't 
participate so we didn't.
    So as far as I know, there is going to be no U.S. present 
at OPEC at all this weekend and early next week. Given the 
sensitivity of their decisions it would have seemed appropriate 
to me to take a bipartisan delegation and observe the 
discussions and perhaps encourage them to make some decisions 
that I know the Republicans and Democrats in the Congress and 
in the executive branch support. So those would have been my 
statements elaborated if he had given a lengthy statement. I 
will put that into the record.
    [Additional statements submitted for the record follow:]
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    This morning, the Subcommittee on Energy and Power will examine the 
Department of Energy's budget request for Fiscal Year 2001.
    Recently we held a hearing on the dramatic increase in the price of 
crude oil and petroleum products. We heard testimony on the multiple 
causes for the increase, whether DOE adequately forecasted the 
increase, and how to help homeowners pay their home heating oil bills.
    Today, we should remember that DOE has responsibility for 
administering U.S. energy policies. I believe the most important energy 
issue facing the U.S. today is the advancement of electric 
restructuring legislation. I know bringing competition to the electric 
sector is a priority for this Committee. It is good for consumers and 
that is what is important to me. I hope that we can all work together 
to enact comprehensive legislation in the 106th Congress that will 
benefit all consumers.
    Today we examine DOE's original mission--to promote energy 
security. Over the years, DOE's focus has shifted to environmental 
management and national security. That is why only 12 percent, or $2.2 
billion is spent on energy resources. But more importantly, this year 
DOE requested a 9 percent increase of almost $1.6 billion. This 
reverses the trend of the last two years when the agency's budget 
request was declining. This hearing provides Members of this committee 
with an opportunity to voice any concerns they may have about DOE's 
shift in focus and in funding.
    I look forward to the Department's testimony, and thank Mr. Barton 
for this hearing.
                                 ______
                                 
   Prepared Statement of Hon. Edward J. Markey, a Representative in 
                Congress from the State of Massachusetts
    Thank you, Mr. Chairman. I want to begin by commending you for 
calling today's hearing.
    As I consider the energy agenda reflected in the Administration's 
Budget Request, I am struck by the transformation that has taken place 
since the early years after I first arrived in Washington. Back then, 
we had price controls on oil and natural gas--controls which had been 
in place since the Nixon Administration and which established at least 
32 different prices for natural gas and 7 tiers of oil prices. Oil 
prices were beginning to spike upward from $13 towards a peak of over 
$37 a barrel. Consumers were about to resume facing gas lines at the 
pump. We were supposedly running out of natural gas and therefore had 
to pass a Fuel Use Act barring it from being used for electricity 
generation. President Carter was calling for a massive multi-billion 
dollar government investment in synfuels, which he claimed, was 
essential to meeting our future energy needs. Energy Secretary James 
Schlesinger was telling us that if we didn't build 1000 nuclear 
powerplants we would be facing blackouts and brownouts across the 
country. We were going to strip oil from shale in a corner of Colorado 
that would, in light of the relevant impact upon the environment, be 
designated a ``National Sacrifice Zone.'' New cars consumed an average 
of 12 miles per gallon, and Detroit was telling us they just couldn't 
make them any more energy efficient than the Model A Ford my Dad bought 
back during the Depression.
    Today so much has changed. The concept of oil and gas price 
controls now seems as distant and dated as polyester leisure suits and 
avocado green refrigerators. The Carter-era synfuels program that was 
supposed to lead us out of the world of ever higher oil prices actually 
had nothing to do with today's lower prices. In fact, the program is 
long dead, buried, and largely forgotten. Colorado survived. Moreover, 
today, we are awash in cheap natural gas--with pipelines coming down 
from off the coast of Nova Scotia that will transform our energy 
marketplace in New England. We haven't ordered a single new nuclear 
powerplant since 1973, but we have met our electricity needs with 
alternative fuels and by becoming more energy efficient. Today, new 
cars consume an average of 27 miles per gallon (although Detroit is 
still telling us they just can't make them any more energy efficient)!
    But, we are again facing an upward spike in oil prices. And while 
many observers believe that the current high prices are likely to be 
shorter in duration and severity that the huge oil shocks we 
experienced back in the Seventies, these increased prices have put 
increased focus on the importance the Department's activities play in 
crafting a national energy policy. The Administration's DOE budget 
request seeks to put our nation in a position where the American people 
are protected from energy price shocks while having access to the 
energy and fuel they need. And the budget request does this not by 
hurting the environment, but by increasing our energy efficiency and 
diversing our fuel supply base. For example, the President and the Vice 
President have proposed a budget that includes over $1 billion next 
year to accelerate the research, development, and deployment of 
alternative and more efficient energy technologies, as well as $4.0 
billion in tax incentives over five years to benefit our energy-reliant 
consumers and businesses.
    These are the kinds of tax cuts that would make a real difference 
in our energy future, and will save consumers more money in the long 
run than a small break on the gas tax. Unfortunately, the House 
yesterday passed a Republican budget resolution that failed to make any 
mention of these common sense tax credits. In addition, the 
Administration's budget request includes a proposed $275 million in R&D 
efforts next year to make offices, homes, and appliances 50% more 
energy efficient within a decade. People understand what that means for 
their home heating bill. Overall, meeting this goal would save 
consumers $11 billion a year in energy costs. Here, the House 
Republican budget resolution proposed to slash overall Energy Research 
funding by $200 million below last year's funding level.
    The Administration has also proposed to expand DOE's Weatherization 
Assistance Program that helps low-income households make their homes 
more energy efficient. These are the Americans that most need to reduce 
monthly energy costs. This program has already weatherized almost 5 
million low-income homes and is saving 3.0 million barrels of oil each 
year. With funding from DOE and the states, our nation could add more 
than 150,000 homes to the list in the next year--which will save more 
than an additional 91,000 barrels of oil per year. The Administration's 
budget request seeks $154 million for FY 2001 and an additional $19 
million for the current year in the FY 2000 supplemental spending bill. 
Here again, the House Republican Budget resolution is silent. And in 
past years, Democrats have had to fight hard to prevent cuts in this 
important program.
    Earlier this week, the House considered a bill that the House 
Republican Leadership dubbed the ``Oil Price Reduction Act''--a case of 
misleading advertising if I ever saw one. Rejecting Democratic efforts 
to reauthorize the President's authority to deploy the Strategic 
Petroleum Reserve (which expires at the end of next week), create a 
regional home heating oil reserve (as the President proposed last 
week), or to adopt the Administration's package of energy production, 
renewables, and efficiency tax credits, the Republicans instead passed 
a meaningless do-nothing bill. All it says is that we should take into 
account oil-price fixing by OPEC member nations in our overall 
political, economic and military relations with these nations--as if we 
didn't already do so today! The bill calls for a report by the 
President on any OPEC price fixing, and on the nature of existing 
military assistance or arms sales from the U.S. to these nations. 
However, the Rules Committee dropped the only meaningful provision from 
the bill--an authorization for the President to cut off arms sales or 
military assistance to OPEC nations that engage in oil price fixing.
    And so, I can only hope that this do-nothing bill is not the final 
chapter in this years' legislative activities on energy. We need to 
reauthorize the Energy Policy and Conservation Act--EPCA--that gives 
the President authority to deploy the Strategic Petroleum Reserve. It 
is unconscionable that this Congress would let EPCA lapse just as 
OPEC's oil ministers are about to meet in Vienna. In addition, we 
should amend the Markey-Lent-Moorhead amendment to EPCA to grant a 
specific authorization to the President to create a regional refined 
product reserve in the Northeast. Finally, we should approve the 
Administration's budget request for the Department of Energy--which 
offers a package of medium and long-term solutions to our dependence on 
imported oil.
    Thank you again, Mr. Chairman, for calling today's hearing. I look 
forward to hearing the testimony.

    Mr. Barton. We are glad to have you, Mr. Deputy Secretary. 
You have been before this committee and subcommittee several 
times. We are going to recognize you for such time as you may 
consume then we will have some questions for you. Mr. 
Secretary.

 STATEMENT OF HON. T.J. GLAUTHIER, DEPUTY SECRETARY OF ENERGY, 
                   U.S. DEPARTMENT OF ENERGY

    Mr. Glauthier. Thank you, Mr. Chairman, and members. I will 
summarize my statement because you do have copies of it. I want 
to thank you for the opportunity to be here to discuss the 
budget. Before I start on specifics of the budget, I want to 
comment on some of the management reforms that we have been 
working on at the department. These are areas which Secretary 
Richardson and I both feel deserve top priority. And we have 
put a lot of attention into them. And I would like to just 
highlight a couple of them.
    First and most important, we have really changed the way 
the headquarters and field operations of the department 
interrelate. We have simplified the reporting lines and we have 
clarified the relationship of line and staff offices within the 
department. We have tried to put in place a clear chain of 
command from the program officers at headquarters to the field 
offices, to the actual sites, the laboratories or production 
plants or other facilities in the field so that there is a 
clear responsibility and authority for actions and for programs 
and policies and an accountability that has been lacking all 
too long.
    We have also done some other things. We established and 
staffed an office of engineering and construction management 
within our Office of Chief Financial Officer to make 
fundamental changes in the way the project management is 
carried on at the department. So much of our work does include 
very large expenditures on big projects. We need to have the 
best discipline and the best practices in that area. We have 
staffed it with people who bring experience from other 
departments and other programs to give us that expertise.
    In this last year, we have also initiated several immediate 
actions concerning security and counterintelligence. As you 
know, those have gotten a lot of attention in the last year. We 
feel we have made substantial progress on an extensive program 
there, and have done things such as creating the Office of 
Security and Emergency Operations, which consolidates the 
security functions throughout the department. We have 
instituted a bottom up internal security review and we have 
created the Office of Independent Oversight and Performance 
Assurance, which independently oversees security, cyber 
security and emergency management programs and reports directly 
to the Secretary.
    Also last year, we launched a ``Work Force for the 21st 
Century Initiative'' to build a talented and diverse work force 
which will strengthen our technical and management capabilities 
and address new challenges, including addressing the long-
standing underrepresentation of women and minorities in senior 
management management and technical positions.
    On another front under the direction of Under Secretary 
Ernest Moniz, we also established a clearly defined and well 
articulated departmental R&D portfolio. This will ensure our 
R&D programs are properly structured and take advantage of 
interrelationships with all of the relevant program areas.
    And last in this management area, the department's defense 
mission is being restructured into the National Nuclear 
Security Administration. We established the NNSA as required on 
March 1st. We transferred 2000 Federal employees and over 
37,000 contractor employees into this new organization. The 
President has indicated he will nominate General John Gordon to 
head this organization, and he has nominated Madelyn Creedon to 
be the Deputy Administrator for defense programs. We are 
committed to making the NNSA a viable effective organization. 
The fiscal year 2001 budget for this NNSA will total $6.2 
billion, an increase of over $400 million above this year's 
level.
    We have made progress in many areas, but we are far from 
finished. We'll continue to improve the department's internal 
management capabilities to realize the full potential which our 
work force and facilities hold for America. This budget will 
help us go further. It is a forward looking request, 
emphasizing investments for the future.
    I would like to mention a couple of successes this year 
before moving on to the requests for the next year. In our four 
mission areas, first, in the science area the department's 
funded researchers have received 43 of the 100 awards given 
last year by the R&D magazine for outstanding technology 
developments with commercial potential. This is the largest 
number ever won by any public or private entity in the history 
of the awards.
    In the national security area, the Departments of Energy 
and Defense have certified for the third consecutive year the 
safety, security and reliability of our Nation's nuclear 
weapons stockpile without nuclear testing. And we are meeting 
critical mission objectives, including new production 
environments for the W76, W80 and W88 warheads, for 
refurbishment of the W-87 Peacekeeper warheads and successful 
accomplishment of subcritical experiments, including initiation 
of production of tritium reservoirs at the Kansas City Plant 
and reestablishment of pit production capability at Los Alamos.
    In the energy resources area we have proposed legislation, 
as noted earlier, to restructure the electric utility industry, 
give consumer choices, save them $20 billion a year on their 
power bills. And we hope that we will be able to continue to 
work with you in the Congress to get this legislation passed 
this year.
    We promoted new technologies for clean and renewable 
energy. We have worked with the utilities and the oil and gas 
industry to make all of our systems Y2K compliant. And on 
January 1, the lights stayed on. We are responding to the 
current oil supply problems through a range of measures from 
the Secretary's diplomatic initiatives with major oil producing 
countries, both within and outside OPEC, to the reestablishment 
of an energy emergency office within the department, extensive 
consultation and coordination with energy suppliers and State 
and local government officials, renegotiation of the Strategic 
Petroleum Reserve royalty in kind deliveries to keep more oil 
in the market. And last Saturday, the President announced the 
administration's intention to create a northeast heating oil 
reserve. The department is working to expedite this decision.
    We would ask you to help us get reauthorization of the 
Strategic Petroleum Reserve, which legislation expires at the 
end of this month.
    In the environment area after years of delay and excuses, 
we did finally open the waste isolation pilot plant in New 
Mexico, the Nation's first nuclear waste repository. We have 
successfully completed 44 shipments to WIPP to date, and on 
March 10th, resumed shipments from the Rocky Flats site in 
Colorado after successfully completing additional waste 
certification requirements.
    We formed partnerships with Governors to clean up and close 
former nuclear weapons productionsites and have set aside over 
300,000 areas--acres as wildlife preserves in Washington, 
Colorado, Tennessee, South Carolina, Idaho and New Mexico.
    For the 2001 budget, we have given the budget the theme 
``strength through science.'' Science is the focus because 
scientific research, both basic and applied, is integral to 
achieving our programmatic objectives in each of our mission 
areas. This department is among the top Federal research and 
development funding agencies, regardless of the criteria used. 
We are first in scientific facilities and rank third in basic 
research funding after the National Institutes of Health and 
the National Science Foundation. The Department of Energy is, 
at its heart, a science agency. In fact, 40 percent of our 
fiscal 2001 budget qualifies as R&D expenditures. We will spend 
a total of $7.1 billion on R&D in fiscal 2000 and plan to spend 
$7.7 billion in 2001, an increase of 8 percent.
    The department's 2001 budget request total is $18.9 
billion. That is $1.6 billion over this year's appropriation, a 
9 percent increase as you indicated in your opening comments. 
Our budget is organized into four business areas. Let me 
mention each one of them briefly. First, energy resources, 
which is the request of $2.2 billion, an increase of $175 
million over this year's level or 8 percent, to provide energy 
options for a stronger America. These investments will enhance 
U.S. energy security by providing more economical and 
environmentally desirable ways to use and produce energy. DOE 
continues to support a balanced portfolio of energy for 
America's future and research and development to enable a 
cleaner energy future.
    The request features several cross-cutting initiatives 
involving energy technology research offices. The climate 
change technology initiative and the international clean energy 
initiative will identify and develop precommercial energy 
technologies and potential markets for their use. The electric 
grid reliability initiative will develop policies and 
technologies to enhance the security of our electricity 
supplies. The enhanced ultra clean transportation fuels 
initiative targets government and industry resources to develop 
a portfolio of advanced petroleum-based highway transportation 
fuels and fuels utilization technologies that are responsive to 
near and midterm environmental regulatory and technical 
challenges.
    Finally, the bioenergy, bioproducts initiative will fund 
research to help make biomass a viable competitor as an energy 
source or chemical feedstock.
    The fossil energy research and development program level of 
$385 million includes funding for the upgraded National Energy 
Technology Laboratory for Fossil Fuels Research. This budget 
continues investments in advanced technological concepts and 
development of highly efficient power generation and fuel 
producing technologies that together do could reduce, or 
perhaps nearly eliminate carbon emissions from fossil fuel 
facilities, the centerpieces of this research including the 
Vision 21 energy plant of the future and carbon sequestration.
    The proposed deferral of $221 million in clean coal 
technology program reflects scheduled delays from the 
rescheduling of certain projects. The department believes the 
clean coal program is important and we anticipate successfully 
completing all of the ongoing projects. Funding for the Office 
of Energy Efficiency and Renewable Energy includes support for 
the research to assist in the development of more efficient 
homes and buildings, wind energy, geothermal, photovoltaics, 
and bioenergy and biopowered projects. Research will also 
continue in the ongoing partnership for new generation of 
vehicles which is developing the prototype advanced technology 
vehicle in conjunction with the auto industry. The we are 
asking $1.3 billion for these programs in fiscal 2001, an 
increase of 18 percent.
    It includes the weatherization assistance program, which 
helps to reduce heating and cooling bills for low income 
residents which itself has an increased budget request for 2001 
to weatherize approximately 77,000 homes.
    The budget for the Office of Nuclear Energy Science and 
Technology has an increase of $21 million to support such 
important activities as nuclear energy research and development 
including the expanded nuclear energy research initiative and 
managing the inventory of depleted uranium hexafluoride. This 
office also conducts a program to produce and distribute 
isotopes necessary for medical, industrial and research 
purposes, including the advanced nuclear medicine initiative.
    The power marketing administrations sell electricity 
primarily generated by hydropower projects located at Federal 
dams. First preference for the sale of power is given to public 
bodies and cooperatives. This budget assumes that in fiscal 
2001, the power marketing administrations will use offsetting 
collections from the sale of electricity to finance purchased 
power and wheeling expenses that were previously funded by 
direct appropriations.
    In the science and technology mission area, we are asking 
for a total of $3.2 billion, an increase of $337 million or 12 
percent. This should provide the knowledge base for future 
innovation thereby improving America's long-term position in an 
increasingly competitive world economy. We continue to promote 
a strong national scientific infrastructure, provide the 
technical foundations for our applied missions. The fiscal 2001 
budget includes initiatives to advance ongoing work at the 
frontiers of nanoscience, scientific computing, microbial 
genomics, robotics, bioengineering and will allow us to 
increase the use of our scientific facilities.
    This budget continues to strongly support the department's 
unique scientific user facilities. Each year over 15,000 
university industry and government sponsored scientists conduct 
cutting edge experiments at these particle accelerators, high-
flux neutron sources, synchotron radiation light sources and 
other specialized facilities.
    In the environmental quality mission area, we are asking 
for a total of $6.8 million, an increase of $511 million, or 8 
percent, to protect the environment and our workers. These 
amounts are required to ensure that each cleanup site meets 
safety and legal requirements, supports accelerated cleanup and 
site closure and maintains other critical environmental 
priorities.
    Our 2001 request continues an aggressive approach to 
address immediate and long-term environmental and health risks 
of the weapon complex. Let me cite a couple of examples. I 
mentioned earlier that we have opened the WIPP facility in New 
Mexico and completed 44 shipments there. We are accelerating 
the schedule of shipments this year and next year in next 
year's budget in order to continue to support the movement of 
waste from our other sites. One of those sites is Rocky Flats, 
where a budget request of $665 million in the fiscal 2000 
budget will support closure by December of 2006. This is based 
on new cost-plus incentive fee contract that took effect 
February 1 this year. The Rocky Flats site is the largest site 
challenge to accelerate cleanup and achieve closure in 2006. 
And to date, significant progress has been made toward making 
this goal a reality.
    Another of our efforts is to protect the Columbia River by 
beginning the removal of spent nuclear fuel from the K-Basins 
at Hanford, which will begin later this year, November of 2000. 
This project will carry out a first of a kind technical 
solution to move 2,100 metric tons of corroding spent nuclear 
fuel from at risk wet storage conditions in the K-East and K-
West basins adjacent to the Columbia River into safe dry 
storage in a new facility away from the river.
    We have also requested increased funding for a 
privatization project in the environmental management area to 
provide more progress in cleaning up and reducing risks from 
the environmental legacy of the Nation's nuclear weapons 
program.
    In 2001, the privatization request includes $450 million in 
budget authority to develop treatment facilities that will 
vitrify at least 10 percent by volume of the 54 million gallons 
of high level waste now stored at underground tanks at the 
Hanford sight in Washington. The department is using a 
privatization approach that shifts many of the technical and 
performance risks to the contractor. This request, a $327 
million increase anticipates a decision in 2000 authorizing the 
contractor to proceed to the construction phase of the project.
    The request also features new initiatives to accelerate and 
clean up and protect health and safety at the gaseous diffusion 
plants in Portsmouth, Ohio and Paducah, Kentucky. Last summer, 
after reports of alleged health and environmental problems 
surfaced at Paducah, the Secretary announced a strategy to 
investigate, identify and remedy at past or remaining health 
safety and environmental problems at these plants. The 
supplemental budget request in the 2001 budget will 
significantly increase funding for these two sites.
    The environment safety and health budget provides an 
increase of $38 million up to a total of $166 million to make 
health and safety programs across the department a key 
priority. This also includes $17 million for the energy 
employee compensation initiative that is pending now before the 
Congress. It is legislation to establish an occupational 
illness compensation program for our workers at our nuclear 
facilities.
    The President has also directed that the National Economic 
Council conduct a review of other workplace exposures and 
illnesses at DOE sites. At the end of this process to be 
completed this spring, the President will receive an 
interagency study on health of our workers which may lead to 
additional measures beyond those which we have initially 
proposed.
    The civilian radioactive waste management program is funded 
at $437 million in our budget request to support determination 
of the suitability of the Yucca Mountain site as a permanent 
repository for nuclear waste. An increase of $77 million for 
the design and engineering work at this site allows DOE to 
maintain the schedule included in the viability assessment. In 
fiscal 2001 an investment of approximately $4 billion and 
almost 18 years of site investigations will culminate in a 
series of statutory decisions on whether the repository should 
be sited at Yucca Mountain. If the site is determined to be 
suitable a site recommendation report will be prepared and 
submitted to the President in fiscal 2001. Our schedule, as you 
know, Mr. Chairman is to complete the science at the end of 
this calendar year so that that will be on schedule.
    The national security area, the fourth of our mission areas 
to be summarized this morning, we are asking for $6.6 billion 
in total. It is an increase of $500 million or 8 percent. And 
it is focused on promoting peace and addressing the next 
generation of national security threats. One of the defendant's 
most important responsibility to the American people, the 
President and to you, the Congress, is to ensure the safety 
security and reliability of the Nation's nuclear stockpile.
    Last fall the Secretary tasked Under Secretary Moniz to 
conduct a comprehensive internal review of the stockpile 
stewardship program. We have termed it the 30-day review. The 
principal finding of the review is that the stockpile 
stewardship program is working both in terms of scientific--of 
specific science of surveillance and production accomplishments 
and in terms of developing a program management structure that 
integrates the span of program activities. However, the program 
also faces significant people and infrastructure challenges, 
including attracting and retaining the best and brightest 
people at both the laboratories and production plants and 
maintaining and capitalizing an infrastructure in many, many 
instances is over 50 years old.
    These challenges, along with the numerous requirements that 
have been added to the program since its in inception, are 
being addressed by Secretary Richardson through his action 
plan.
    We have made considerable progress on these issues in the 
last 3 months and continue to work very closely with the 
Department of Defense through the Nuclear Weapons Council to 
ensure that the U.S. nuclear deterrent remains viable into the 
future.
    That concludes my summary of the statement. The full 
statement has been submitted to you for the record. I look 
forward to answering questions.
    [The prepared statement of Hon. T.J. Glauthier follows:]
    Prepared Statement of T.J. Glauthier, Deputy Secretary of Energy
    Mr. Chairman, I want to thank you for the opportunity to appear 
before the Subcommittee on the Department of Energy's Fiscal Year 2001 
budget.
Management Reforms
    Before I discuss the details of our FY 2001 budget request, I would 
like to address a major issue of concern to the Administration and the 
Congress--management systems of the Department. In the past year, a top 
priority has been to improve the way DOE manages its people, its 
resources, and its programs. The Secretary and I have given management 
efficiencies our closest attention.
    First, we changed the way headquarters and the field interrelate. 
We instituted a Field Management Council to bring coherence to 
decision-making and weigh competing demands for requirements on the 
field, and assigned Lead Principal Secretarial Officers (LPSOs), 
responsibility for specific sites within the complex. We hired new 
managers at almost all our sites throughout the complex.
    Second, we increased the accountability of our top managers. We are 
depending more upon ``line management,'' have empowered LPSOs, and are 
holding them accountable for their specific areas of responsibility.
    Third, working with the Congress, we regained control of assigning 
M&O contract employees to the Washington area. We restructured 
assignment procedures for these employees in Washington, required 
specifically defined tasks from them, and ordered closure of most M&O 
Washington offices reimbursed by DOE.
    Fourth, working with the Congress, we are applying sound business 
principles to management of our construction and environmental 
remediation projects. We established and staffed the Office of 
Engineering and Construction Management within the Office of the Chief 
Financial Officer to make major fundamental changes in our project 
management procedures, principles, and practices.
    Fifth, we initiated several immediate actions correcting security 
and counterintelligence problems within the Department which have 
existed for years, but had not received the appropriate level of 
attention. We have made substantial progress on an extensive program of 
security and counterintelligence improvements, including:

<bullet> Creating the Office of Security and Emergency Operations, 
        consolidating the security functions throughout the Department;
<bullet> Instituting a bottom-up internal security review; and,
<bullet> Creating the Office of Independent Oversight and Performance 
        Assurance, which independently oversees security, cyber 
        security, and emergency management within the Department and 
        reports directly to the Secretary.
    Sixth, last year, we launched the ``Workforce for the 21st 
Century'' Initiative to build a talented and diverse workforce which 
will strengthen our technical and management capabilities and address 
new challenges. Increasingly, the Department is competing with private 
industry to recruit and retain the highly skilled personnel required to 
deliver our missions. This growing skills gap has been recognized by 
the General Accounting Office, the Office of Inspector General, and 
this Committee. To address part of the scientific skills gap, we are 
proposing a Scientific Recruitment and Retention Initiative in this 
budget which totals $10.0 million. Under our Workforce 21, for the 
first time in four years the Department has been able to target hiring 
of key technical personnel and strengthen recruitment and internship 
programs to create a pipeline of employees ready to enter the DOE 
workforce at the entry and mid-level jobs.
    The Department also has an opportunity and responsibility to 
address the longstanding under-representation of women and minorities 
in senior management and technical positions. We have initiated an 
extensive review of workforce management practices to identify barriers 
that hinder the promotion of a more representative workforce. The 
review resulted in a Department-wide strategic plan called ``Achieving 
and Promoting a Workforce that Looks Like America: A Companion to 
Workforce 21.'' This plan, now in place, will help build a 
representative workforce and instill management systems that foster 
equal opportunity in hiring, promotion, and training practices. We have 
also established a task force against racial profiling and emphasized 
the need to promote more partnerships with minority educational 
institutions.
    Seventh, under the direction of the Under Secretary Ernie Moniz, we 
also established a clearly defined and well articulated Departmental 
R&D portfolio. This will ensure our R&D programs are properly 
structured and take advantage of interrelationships with all relevant 
program areas.
    Lastly, the Department's defense mission is being restructured into 
the National Nuclear Security Administration (NNSA). We established the 
NNSA, as required, on March 1. This included the successful 
consolidation of the Defense Programs, Nonproliferation and National 
Security, Fissile Materials Disposition, and Naval Reactors offices 
into the NNSA and involved the transfer of some 2,000 federal employees 
and 37,000 contractor employees to this new organization. As we 
discussed, the President has announced that he intends to nominate 
General John A. Gordon to head this organization. He also nominated 
Madelyn Creedon to be the Deputy Administrator for Defense Programs. We 
are committed to making the NNSA a viable, effective organization. The 
FY 2001 budget for the NNSA will total $6.2 billion, an increase of 
$432 million over this year's level.
    We've made progress in many areas, but we are far from finished. We 
will continue to improve the Department's internal management 
capabilities to realize the full potential which our workforce and 
facilities hold for America. This budget will help us go farther. It is 
a forward-looking request emphasizing investments for the future.
Mission Accomplishments
    Notwithstanding our efforts to address our management problems, the 
Department has continued successfully to carry out its critical 
missions. For example, in Science, Department-funded researchers 
received 43 of the 100 awards given in 1999 by R&D Magazine for 
outstanding technology developments with commercial potential. This is 
the largest number ever won by any public or private entity in the 
history of the awards.
    In national security, the Departments of Energy and Defense 
certified for the third consecutive year that the safety, security and 
reliability of our nation's nuclear weapons stockpile could be assured 
without nuclear testing. And we are well on our way to our fourth 
certification. We also completed important agreements with Russia to 
promote non-proliferation. And we are meeting critical mission 
objectives including new production requirements for the W76, W80, and 
W88 warheads, refurbishment of W-87 Peacekeeper warheads, successful 
accomplishment of subcritical experiments, initiation of production of 
tritium reservoirs at the Kansas City Plant, and re-establishment of 
pit production capability at Los Alamos.
    In energy resources, we proposed legislation to restructure the 
electricity industry, to give consumers choices, and save them $20 
billion a year on their power bills. We hope Congress will act on it 
this year. We promoted new technologies for clean and renewable energy. 
We worked with utilities and the oil and gas industry to make systems 
Y2K compliant, and on January 1, the lights stayed on. We are 
responding to current oil supply problems through a range of measures: 
from the Secretary's diplomatic initiatives with major oil producing 
countries, both within and outside of OPEC, to the reestablishment of 
an Energy Emergency Office within the Department, to extensive 
consultation and coordination with energy suppliers and state and local 
government officials, to renegotiation of Strategic Petroleum Reserve 
royalty-in-kind deliveries to keep more oil in the market. On Saturday, 
the President announced the Administration's intention to create a 
Northeast heating oil reserve and the Department is working to expedite 
this decision.
    For the environment, after years of delays and excuses, we opened 
the Waste Isolation Pilot Plant in New Mexico, the nation's first 
nuclear waste repository. We've successfully completed 44 shipments to 
WIPP to date and on March 10 resumed shipments from Rocky Flats after 
successfully completing additional waste certification requirements. We 
formed partnerships with governors to clean up and close former nuclear 
weapons production sites, and set aside over three hundred thousand 
acres as wildlife preserves in Washington, Colorado, Tennessee, South 
Carolina, Idaho, and New Mexico.
Strength Through Science
    We've given this budget the theme Strength Through Science. Science 
is the focus because scientific research, both basic and applied, is 
integral to achieving our programmatic objectives in each of our 
mission areas. This is as true for our national security mission--which 
ensures that the nation's nuclear weapons stockpile remains safe, 
secure, and reliable, and counters the spread of weapons of mass 
destructio-as it is for our energy mission--to achieve continued 
reductions in the economic and environmental costs of producing and 
using energy resources. It is also true for our environmental mission 
to clean up the nuclear and toxic waste that is the legacy of the Cold 
War.
    Many of the technologies that are fueling today's economy, such as 
the Internet, build upon government investments in the 1960's and 
1970's--including the Office of Science's ``Esnet.'' The Department of 
Energy and its predecessor agencies have been the sponsor of science-
driven growth through the combined efforts of the national 
laboratories, 70 Nobel Laureates associated with the Department, and 
thousands of outstanding university- and industry-based researchers 
nationwide.
    This Department is among the top federal research and development 
funding agencies, regardless of the criterion used. We are first in 
scientific facilities and rank third in basic research after the 
National Institutes of Health and the National Science Foundation. The 
Department of Energy is, at its heart, a science agency; in fact, 40 
percent of our FY 2001 budget qualifies as R&D expenditures. We will 
spend a total of $7.1 billion on R&D in FY 2000 and plan to spend $7.7 
billion in FY 2001, an increase of 8 percent.
Department of Energy FY 2001 Budget Request
    The Department of Energy's FY 2001 budget request is $18.9 billion. 
This is $1.6 billion over this year's appropriation, a nine percent 
increase. Our budget is organized into four business lines; some 
highlights of each of these are described briefly below.
    Energy Resources: $2.2 billion (an increase of $175 million, or 8 
percent) to provide energy options for a stronger America. These 
investments will enhance U.S. energy security by providing more 
economical and environmentally desirable ways to use and produce 
energy. DOE continues to support a balanced portfolio of energy for 
America's future, and research and development (R&D) to enable a 
cleaner energy future. This request emphasizes energy infrastructure 
reliability, scientific carbon management and R&D, international energy 
R&D partnerships, and bio-energy/bio-power technologies.
    The request features several cross-cutting initiatives involving 
the energy technology research offices (Fossil, Nuclear, Energy 
Efficiency and Renewable Energy, Science) that will ensure energy 
security through new economically and environmentally desirable means 
of using and producing energy. The Climate Change Technology Initiative 
and the International Clean Energy Initiative will identify and develop 
pre-commercial energy technologies and potential markets for their use. 
The latter effort builds on the conclusions of a recent report by the 
President's Committee of Advisors on Science and Technology (PCAST) 
that identifies the need to bridge the gap between development and 
deployment of new technologies.
    The Electric Grid Reliability Initiative will develop policies and 
technologies to enhance the security of our electricity supplies. The 
Carbon Sequestration Initiative follows a technology roadmap to 
accelerate R&D to mitigate the impacts of carbon emissions.
    The Enhanced Ultra Clean Transportation Fuels Initiative targets 
government and industry resources to develop a portfolio of advanced 
petroleum-based highway transportation fuels and fuels utilization 
technologies that are responsive to near-and mid-term environmental, 
regulatory and technical challenges.
    Finally, the Bioenergy/Bioproducts Initiative will fund research to 
help make biomass a viable competitor as an energy source or chemical 
feedstock.
    The Fossil Energy Research and Development program level of $385 
million includes funding for the up-graded National Energy Technology 
Laboratory for fossil fuels research. This budget continues investments 
in advanced technological concepts and development of highly efficient 
power generation and fuel producing technologies that together could 
reduce, or perhaps nearly eliminate, carbon emissions from fossil fuel 
facilities. The centerpieces of this research include the Vision 21 
energy plant of the future and carbon sequestration.
    The proposed deferral of $221 million in the Clean Coal Technology 
program reflects schedule delays from the rescheduling of certain 
projects. The Department believes the Clean Coal Program is important 
and we anticipate to successfully complete all of the ongoing projects.
    Funding for the Office of Energy Efficiency and Renewable Energy 
includes support for research to assist in the development of more 
efficient homes and buildings, wind energy, geothermal, photovoltaics, 
and bioenergy and biopower projects. Research will also continue in the 
on-going Partnership for a New Generation of Vehicles (PNGV), which is 
developing the prototype advanced technology vehicle in conjunction 
with the automotive industry. We are requesting $1.26 billion for these 
programs in FY 2001--an increase of 18%.
    The Weatherization Assistance Program , which helps to reduce 
heating and cooling bills for low-income residents, has an increased 
budget request for FY 2001 to weatherize approximately 77,000 homes. In 
addition, the Administration is requesting $19 million for this program 
in the FY 2000 Supplemental Appropriations package to cover 9500 more 
homes.
    This Office also funds the Federal Energy Management Program, which 
helps federal agencies identify, finance and implement energy 
efficiency improvements for their facilities. The Federal Government 
spends $8 billion each year on energy for its own facilities and 
operations, and this program saves money for taxpayers by reducing that 
spending. Our FY 2001 request for this program is $29.5 million--a 23% 
increase.
    The budget for the Office of Nuclear Energy, Science and Technology 
has an increase of $21 million to support such important activities as 
nuclear energy research and development (including the expanded Nuclear 
Energy Research Initiative) and managing the inventory of depleted 
uranium hexafluoride. The Department is also proceeding with the 
project to design and build facilities to convert this inventory to a 
more stable form, and in a manner that fully protects workers and the 
environment. This office also conducts a program to produce and 
distribute isotopes necessary for medical, industrial and research 
purposes, including the Advanced Nuclear Medicine Initiative.
    The Power Marketing Administrations (PMAs) sell electricity 
primarily generated by hydropower projects located at federal dams. 
First preference for the sale of power is given to public bodies and 
cooperatives. Revenues from selling the power and transmission services 
of the three PMAs are used to repay the U.S. Treasury for annual 
operation and maintenance costs, repay the capital investments with 
interest, and assist capital repayment of other features of certain 
projects. However the PMAs also buy and sell, as a simple pass through, 
purchase power and wheeling. This budget assumes that in FY 2001 the 
PMAs will use offsetting collections from the sale of electricity to 
finance purchase power and wheeling expenses previously funded by 
direct appropriations. Purchase power and wheeling activities financed 
through this method will be phased out in annual decrements by the end 
of FY 2004.
    Science and Technology: $3.2 billion (an increase of $337 million, 
or 12 percent) to strengthen our science programs and provide the 
knowledge base for future innovation, thereby improving America's long-
term position in an increasingly competitive world economy. We continue 
to promote a strong national scientific infrastructure and provide the 
technical foundations for our applied missions. The FY 2001 budget 
includes initiatives to advance ongoing work at the frontiers of 
nanoscience, scientific computing, microbial genomics, robotics, 
bioengineering, and it will allow us to increase the use of our 
scientific facilities.
    The budget calls for $182 million for Advanced Scientific Computing 
Research (ASCR) to increase computer modeling and simulation research 
and development.
    Microbial genomics, an outgrowth of the Department's pioneering 
work in the Human Genome Program, is expanding efforts in microbial 
cell research. This research, which involves the study of organisms 
that have survived and thrived in an extreme and inhospitable 
environment, could hold the key to advance energy production and use, 
environmental cleanup, medicine, and agricultural and industrial 
processing.
    Nanotechnology, or research and development into extreme 
miniaturized technologies, is funded at $91 million, of which $83 
million is in the Science budget and $7 million is in Defense Programs. 
This work gives researchers the ability to manipulate matter at the 
atomic level and could spark further development of supercomputers that 
fit in the palm of the hand, or tiny devices to fight disease or heal 
injuries from inside our bodies. Also included in this science budget 
is $281 million for the Spallation Neutron Source and $247 million for 
fusion.
    The FY2001 budget continues to strongly support the Department's 
unique scientific user facilities. Each year over 15,000 university, 
industry and government-sponsored scientists conduct cutting edge 
experiments at these particle accelerators, high-flux neutron sources, 
synchrotron radiation light sources and other specialized facilities.
    Environmental Quality: $6.8 billion (an increase of $511 million, 
or 8 percent) to protect the environment and our workers. These amounts 
are required to ensure that each cleanup site meets safety and legal 
requirements, supports accelerated cleanup and site closure, and 
maintains others critical environmental priorities.
    The Environmental Management budget of $6.3 billion supports 
proposals to continue our efforts to meet cleanup obligations to 
communities throughout the country:

<bullet> $1,082 million for Defense Facilities Closure Projects;
<bullet> $4,552 million for Defense Environmental Restoration and Waste 
        Management;
<bullet> $515 million for Defense Environmental Management 
        Privatization;
<bullet> $286 million for Non-Defense Environmental Management; and
<bullet> $303 million for the Uranium Enrichment D&D Fund.
    These funds will allow the Department to continue to implement the 
agreement the Secretary reached last year with the Governors of 
Colorado, South Carolina, Tennessee, and Washington on a Statement of 
Principles laying the foundation for a cooperative working relationship 
between DOE and the states with DOE cleanup sites. Our FY 2001 request 
continues an aggressive approach to address immediate and long-term 
environmental and health risks of the weapons complex. In March 1999, 
we made great progress when we opened the Waste Isolation Pilot Plant 
in New Mexico as a safe, permanent disposal location for transuranic 
nuclear wastes. The FY 2001 request represents an increase of 
approximately $440 million over the FY 2000 current appropriation to 
continue making progress in completing cleanup and closing sites.
    A budget request of $664.7 million supports closure of Rocky Flats 
by December 15, 2006, the closure date targeted in the new cost-plus-
incentive-fee contract that took effect February 1, 2000. The Rocky 
Flats Site is the largest site challenge to accelerate cleanup and 
achieve closure in 2006, and to date significant progress has been made 
toward making this goal a reality.
    The FY 2001 request furthers our efforts to protect the Columbia 
River by beginning the removal of spent nuclear fuel from the K-Basins 
at Hanford in November 2000. This project will carry out a first-of-a-
kind technical solution to move 2,100 metric tons of corroding spent 
nuclear fuel from at-risk wet storage conditions in the K-East and K-
West basins adjacent to the Columbia River into safe, dry storage in a 
new facility away from the river.
    The increased request for EM Privatization will provide for more 
progress in cleaning up and reducing risks from the environmental 
legacy of the nation's nuclear weapons program. The FY 2001 
privatization request includes $450 million in budget authority to 
develop treatment facilities that will vitrify at least 10 percent by 
volume of the 54 million gallons of high level waste now stored in 
underground tanks at the Hanford Site in Washington. The Department is 
using a privatization approach that shifts many of the technical and 
performance risks to the contractor. The request, a $327 million 
increase, anticipates a decision in FY 2000 authorizing the contractor 
to proceed to the construction phase of the project. The amount 
requested will keep the project on schedule to begin hot operations in 
2007.
    The request features new initiatives to accelerate cleanup and 
protect health and safety at Gaseous Diffusion Plants (GDPs) in 
Portsmouth, Ohio, and Paducah, Kentucky. Last summer, after reports of 
alleged health and environmental problems surfaced at Paducah, the 
Secretary announced a strategy to investigate, identify and remedy any 
past or remaining health, safety and environmental problems at these 
plants. The Secretary appointed an investigation team that made 
recommendations which resulted in a request for funding to achieve 
health surveillance, safety assessments, and environmental remediation 
goals within a rapid timeframe. The Administration also has submitted a 
$26 million FY 2000 Supplemental Budget Request to Congress to address 
additional concerns--$10 million for ES&H activities and $16 million 
for environmental restoration. This supplemental request and the FY 
2001 budget will significantly increase funding for the two GDP sites.
    The FY 2001 budget request also provides funding, subject to new 
legislative authority, to initiate cleanup of uranium mill tailings in 
Moab, Utah, to restore lands at the gateways of some of our most 
spectacular national parks.
    The Environment, Safety and Health budget provides an increase of 
$38 million, to $166 million, to make health and safety programs a key 
priority of the entire department. ($40 million is included in the 
Energy Supply account for non-defense ES&H activities.) This also 
includes $17 million for the Energy Employee Compensation Initiative. 
Pending now before Congress is legislation to establish an occupational 
illness compensation program for the Department of Energy's workers at 
its nuclear facilities. The bill has three parts, each addressing a 
specific group of workers eligible for compensation benefits:

<bullet> The Energy Employee's Beryllium Compensation Act, addressing 
        current and former DOE federal and contractor workers with 
        beryllium disease. Eligible workers would receive reimbursement 
        for prospective medical costs associated with the illness and a 
        portion of lost wages, or have the option of receiving a 
        single, lump sum benefit of $100,000;
<bullet> The Paducah Employees' Exposure Compensation Act, addressing 
        Paducah, Kentucky employees exposed to radioactive materials; 
        and
<bullet> A specific group of Oak Ridge, Tennessee employees determined 
        by an independent panel of occupational physicians to have 
        illnesses due to workplace exposure.
    The President has also directed that the National Economic Council 
(NEC) conduct a review of other workplace exposures and illness at DOE 
sites. At the end of this process, the President will receive an 
interagency study on the health of our workers which may lead to 
additional measures beyond those we initially proposed.
    In response to worker health concerns, the Department has also 
established the Chronic Beryllium Disease (CBD) Prevention Program. 
Contractors at DOE sites with the potential for worker exposure to 
beryllium, a metal used in many nuclear applications, are required to 
submit a detailed plan to meet prevention program requirements. This is 
intended to minimize the number of future cases of disease from current 
workers. The program also calls for monitoring the health of 
``beryllium-associated'' workers to promote early detection of CBD.
    The Civilian Radioactive Waste Management program is funded at $437 
million to support determination of the suitability of Yucca Mountain 
as a permanent repository for nuclear waste. An increase of $77 million 
for Yucca Mountain design and engineering works allows DOE to maintain 
the schedule of work included in the Viability Assessment. In FY 2001, 
an investment of approximately $ 4 billion and almost 18 years of site 
investigations will culminate in a series of statutory decisions on 
whether the repository should be sited at Yucca Mountain. If the site 
is determined to be suitable, a Site Recommendation Report will be 
prepared and submitted to the President in FY 2001.
    National Security: $6.6 billion (an increase of $502 million, or 8 
percent) to promote peace and address the next generation of national 
security threats. One of the Department's most important 
responsibilities to the American people, the President, and to you, the 
Congress, is to ensure the safety, security and reliability of the 
nation's nuclear stockpile. A dependable nuclear deterrent remains at 
the root of the United States' national security policy. Once again, 
without underground testing, our Stockpile Stewardship Program is 
working today to confirm its continued safety and reliability. It draws 
upon the best scientific resources in our complex, allowing the 
Secretary of Energy and the Secretary of Defense to annually certify to 
the President that the nuclear deterrent does not require underground 
testing at this time. Three annual certifications--and a soon-to-be-
completed fourth--are proof of its enduring success.
    Last October, the Secretary tasked Under Secretary Moniz to conduct 
a comprehensive internal review of the Stockpile Stewardship Program 
(30-Day Review). The principal finding of the review is that stockpile 
stewardship is working, both in terms of specific science, 
surveillance, and production accomplishments, and in terms of 
developing a program management structure that integrates the span of 
program activities. However, the program does face significant people 
and infrastucture challenges, including attracting and retaining the 
best and the brightest people at both the laboratories and the 
production plants, and maintaining and recapitalizing an infrastructure 
that--in many instances--is over fifty years old. These challenges, 
along with numerous requirements that have been added to the program 
since its inception, are being addressed by Secretary Richardson 
through his 15-point Action Plan. We have made considerable progress on 
these issues in the last three months and continue to work very closely 
with the Department of Defense, through the Nuclear Weapons Council, to 
ensure that U.S. nuclear deterrence remains viable into the future.
    In addition, our supplemental budget request for FY2000 of $55 
million will allow us to address infrastructure issues. It will 
specifically apply to the workforce, production readiness, required 
infrastructure, and safety challenges at the three production plants:

<bullet> Y-12 Plant in Tennessee;
<bullet> Kansas City Plant in Missouri; and the
<bullet> Pantex Plant in Texas.
    The National Defense Authorization Act for FY 2000 created a semi-
autonomous agency within the Department, the National Nuclear Security 
Administration (NNSA). These national security program increases are 
necesssary to ensure the safety, security, and reliability of America's 
nuclear weapons stockpile, reduce nuclear proliferation threats world-
wide, and protect against the threat of weapons of mass destruction. A 
total of $6.2 billion--up $432 million from the funding level for these 
programs in FY 2000--is requested for departmental programs that are 
consolidated into the NNSA (Defense Programs, Nonproliferation and 
National Security, Fissile Materials Disposition, and Naval Reactors). 
The Albuquerque and Nevada Field Operations offices also are under the 
jurisdiction of the NNSA.
    The remaining national security budget request includes department-
wide offices of the Secretary of Energy that are not part of the NNSA--
the Offices of Intelligence, Counterintelligence, Security & Emergency 
Operations, Independent Oversight & Performance Assurance, and Worker 
Transition. The most significant increase is for the Office of Security 
and Emergency Operations, with a program level of $340 million. The 
increase of $48 million, assuming favorable Congressional action on our 
supplemental request, is mainly for additional cyber-security 
activities and personnel.
Conclusion
    Our FY 2001 budget is a strong statement reflecting this 
Administration's commitments to the American people. It is a request 
that emphasizes our strength in science and enables us to effectively 
deliver our missions. I look forward to working with you, Mr. Chairman 
and other members of the Subcommittee, to meet our responsibilities to 
the American people.

    Mr. Barton. Thank you, sir.
    The Chair is going to recognize himself for 7 minutes. We 
are going to recognize each member then for 7 minutes. Then if 
we need additional questions, we will do that. I have a flight 
at 12:27, so we are trying to wrap this up by 11:45 if 
possible. I want to say at the outset, Mr. Secretary, that I 
understand that the Department of Energy is misnamed. You 
really--most of your resources and most of your 
responsibilities are more in weapons management, weapons 
development, waste cleanup. So it is no negative on the Clinton 
administration. But the $18 billion proposed budget, I went 
through last night and then just glanced through your testimony 
again, I don't see too much money being spent on energy, energy 
research especially. What is the total, and I don't need an 
exact number, but what would you estimate of your $18 billion 
request is actually going to try to increase domestic energy 
supply?
    Mr. Glauthier. Well, the energy resources area, one of our 
four mission areas is a total of $2.2 billion.
    Mr. Barton. But most of that is not energy research to 
actually increase energy supply. It is environmental 
management, and I think you used the euphemism ``carbon 
dispersion'' or something.
    Mr. Glauthier. Sequestration.
    Mr. Barton. That is hardly adding to our energy supply. I 
am talking about Mr. Strickland, who might want to spend a 
little more in clean coal technology so we could use more of a 
coal resources or myself who might want to spend more in 
natural gas research or oil research so you get a little more 
out of our domestic oil wells or find more markets for natural 
gas, I am talking about actual things that would minimize our 
growing dependence on foreign sources of energy.
    Mr. Glauthier. Well, Mr. Chairman I think the majority of 
the funds, the vast majority of those funds in the $2.2 billion 
dollars do speak to that, either directly or indirectly. 
Directly in research and areas like fossil energy research or 
clean coal programs but indirectly also in the energy 
efficiency programs, which reduce the amounts of energy we need 
to consume, so that every advancement we can make in appliances 
or automobiles or industrial motors that require less energy 
also benefit.
    Mr. Barton. I will grant you that if you can increase 
conservation, you use less energy, and we would agree on that. 
But last year did the United States of America increase its 
energy production or decrease its energy production? From all 
sources?
    Mr. Glauthier. From all sources.
    Mr. Barton. That we actually produce in this Nation, not 
import?
    Mr. Glauthier. We decreased oil production, but I suspect 
increased electricity production, for example.
    Mr. Barton. Well----
    Mr. Glauthier. So on balance, I am not sure.
    Mr. Barton. You are saying that we added some gas-fired 
turbine plants, and probably on a net basis that offset the 
decline in domestic oil production.
    Mr. Glauthier. I am not sure it offset completely, but the 
economy----
    Mr. Barton. Well, I am not either. You are not under oath. 
I am not trying to trick you. I am just pointing out a basic 
fact is that we are not significantly increasing domestic 
energy production. Now, because the electricity markets are 
changing, we are building more gas-fired turbine plants, and 
some of them have double capacity and that, on a net basis, is 
probably slightly increasing our overall capability. But our 
oil production is declining. Our coal production is flat and 
may be slightly increasing. Our natural gas production is--
could increase significantly, but stymied by transportation 
bottlenecks primarily in the northeast.
    So I would encourage you to look a little bit more in 
trying to actually do more to increase domestic energy 
production.
    I want to switch gears just a little bit. Do we have the 
clock? We do have the clock on? I don't want to take up too 
much more than my time than I am supposed to. On the floor 2 
days ago, we had a bill out of the Foreign Relations Committee 
that directed the Secretary of Energy to give a report to the 
President and the Congress about the OPEC nations if they are 
price fixing. In my opinion, it is one of the silliest pieces 
of legislation we have had before the Congress in the 15 years 
I have been in Congress. I was one of only 38 members that 
thought that through, the other 300 and some odd voted for it.
    But in the middle of that debate, in the middle of that 
debate, several northeast congressmen got up and talked about 
the need for a refined fuel oil reserve in the northeast. That 
that somehow would have been a salvation for the heating oil 
problem that was legitimately faced in the northeast this 
winter.
    Now, I pointed out that section 157 of the Energy Policy 
Conservation Act, the Strategic Petroleum Reserve authorizes 
such a reserve. It is the current law. So I was a little bit 
struck when earlier this week or late last week, the President 
came forward, and with great fanfare announced the creation of 
such a reserve. So I want to just try to find out what the 
thinking is here of the administration. Because last March, 
March 15th, 1999, Secretary Richardson submitted a letter to 
the Speaker of the House, Danny Hastert, and said we ought to 
repeal that. He said subsection F would amend section 152 of 
EPCA, by deleting the definition of early storage reserve 
industrial petroleum reserve and regional petroleum reserve. 
There is no need to establish an early storage reserve now that 
the SPR reserve is operational. And an industrial petroleum 
reserve has never been established because of policy 
consideration. And EPCA provisions referring to it should be 
struck. In the course of several reviews conducted since the 
passage of EPCA, DOE has consistently determined the government 
owned and controlled crude oil reserve located in the Gulf 
Coast region is the most cost effective way to ensure continued 
oil product supplies to the Nation. Therefore, the regional 
petroleum reserves are not necessary.
    Then it goes further, next page said that the subsection 
157 the regional petition reserve should also be struck. It 
says the department is determined in its report issued on May 
the 13th, 1998, that a government owned and controlled crude 
oil reserve located the Gulf Coast region is the most cost-
effective way to ensure continued oil product supplies to the 
Nation. Accordingly, product supplies are not required to 
ensure prompt and effective responses to supply interruptions 
because domestic refining capacity is adequate to supply 
petroleum products during a supply emergency.
    So that is May--I mean, March 15 of last year. Mr. Gee, who 
I think is sitting right behind you looking very intelligent as 
he is and being glad that he is not up here at the desk I am 
sure, September the 16th, 1999, he says the same thing when he 
testified before this subcommittee. ``the need for a regional 
petition reserve is not foreseeable and funding for such a 
program is not justifiable, because based on its expected 
benefits, the administration bill deletes both this requirement 
and references to regional and refined product storage.''
    So all the official documentation until about a week ago 
says we don't need this. I have got the report here in June 
1998 and the summary. It is to design and construct a large 
reserve and then adopt an inexpensive field strategy and an 
unresponsive employment policy would produce a reserve whose 
cost would greatly outweigh its benefits.
    Now, I understand that Mr. Markey and Mr. Gejdenson and 
some of my Republican friends too, it has not just been the 
Democrats, have been demanding that the existing law be obeyed 
and that this is something that's necessary. But all your 
policy documents that you have submitted indicate that while it 
may look good on paper, it just doesn't make any sense. So is 
all this information wrong or have you all found some new 
documents and some new models that showed that you were 
incorrect in the past and now you have seen the light?
    Mr. Glauthier. Well, Mr. Chairman, we do want to 
acknowledge that the these situations are dynamic and we 
continue to reassess the situation. What we found in the last 
year is that the distribution system was not, in fact, as 
flexible as we had thought. In particular, we saw the industry 
reducing its own inventories at a faster rate than we would 
have expected. Our proposal now is to have a reserve all right, 
but not the same one that is in the statute because the way the 
provision is already authorized in law, does not provide us the 
flexibility to use a reserve of that sort when there is a 
regional problem, a regional spike in prices or a regional 
disruption in supply. The trigger that is required to be able 
to release oil from that reserve in the current legislation is, 
or the current law is a national emergency. Now, we need to 
have that modified we need to have it done if a way that really 
would reflect a regional problems and then----
    Mr. Barton. You want a different trigger mechanism.
    Mr. Glauthier. That is the primary change that is going to 
be needed.
    Mr. Barton. Do you want to amend your budget that you 
submitted to fund this reserve, and if so, how much? I didn't 
see any money in the budget for this newly found fervor for the 
reserve. So how much money do you think we ought to put into 
it?
    Mr. Glauthier. Well, there are two types of funding that 
might be required. One is for structuring, leasing a facility 
and operating, and the other one is the purchase of the oil 
itself. The purchase of the oil is by far the greater amount of 
money, and we do not propose to actually seek appropriations 
for that. The idea would be that we essentially effect a 
transfer of oil that is in the Strategic Petroleum Reserve now 
so that about 2 million of that is actually located in a 
reserve in the Northeast.
    Mr. Barton. So you are not going to have a refined fuel oil 
reserve that is available in the Northeast?
    Mr. Glauthier. Well, this would be a Home Heating Oil 
Reserve, and when I said effectively transfer, we don't mean 
physically to take oil from the Strategic Petroleum Reserve and 
pipe it up there, but rather to exchange oil that is in the 
reserve for products that would be stored up in the Northeast, 
so that----
    Mr. Barton. I guess I am just ignorant, but it would seem 
to me if you wanted to--it does make some sense to me to have 
fuel oil available for distribution where the people need it. 
Oil that is in the Strategic Petroleum Reserve down on the Gulf 
Coast takes time to get it out, it takes time to refine it, it 
takes time to transport it and then it takes time to distribute 
it. So obviously if we had a problem next winter like we had 
this winter and that was our refined product reserve, it would 
probably take 2 months to get it there and that wouldn't help 
anybody, but I don't hear you saying that you want to actually 
physically locate fuel oil in Boston, in New York, in 
Connecticut, wherever, having it available so that if you have 
a severe winter, it is there.
    You are not saying that?
    Mr. Glauthier. No. I am sorry, Mr. Chairman, that is what I 
intended to say. I haven't said it clearly.
    The proposal would be to have a reserve for home heating 
oil in the Northeast, somewhere located in the Northeast.
    Mr. Barton. Real fuel oil?
    Mr. Glauthier. Yes.
    Mr. Barton. It would be in real tanks?
    Mr. Glauthier. That's right.
    Mr. Barton. Okay. Not just on paper somewhere.
    Mr. Glauthier. That is correct.
    Mr. Barton. You are not requesting we fund that; you just 
want the political benefit of saying, we ought to do it and let 
the next administration pay for it?
    Mr. Glauthier. We will be requesting some funding for it. 
We will send a budget amendment forward for the 2001 budget, 
for only the cost associated with leasing of tanks and of some 
of the operations, which----
    Mr. Barton. So you are not going to add new capacity? The 
same capacity that was inadequate this winter, you are just 
going to lease it so it will be inadequate next winter?
    Mr. Glauthier. On a national scale, we have about 580 
million barrels of oil in the Strategic Petroleum Reserve.
    Mr. Barton. It is crude oil. It is not refined.
    Mr. Glauthier. That is correct. We propose to essentially 
trade a couple million barrels of that oil for the refined 
products that we want to store in the Northeast, so we don't 
have to ask for appropriations to purchase those products; and 
that will----
    Mr. Barton. So you are going to go to the private oil 
companies and say, we will give you 2 million barrels of crude 
oil in the SPR if you give us 2 million barrels of fuel oil and 
store it in the Northeast.
    Mr. Glauthier. Whatever the right numbers work out to be. 
We haven't done all the analysis to work it out.
    Mr. Barton. But there is a principle----
    Mr. Glauthier. That is exactly the principle, and of 
course, we are continuing to replenish the oil in the Strategic 
Petroleum Reserve from our royalty-in-kind program, so even 
though this would temporarily be a slight reduction in the Gulf 
Coast, we would make that up. And, in fact, the reserve is 
still part of the national reserve. We would have that portion 
in refined products in the Northeast.
    Mr. Barton. My time has expired, but isn't it true that all 
the analysis that was done a year or two ago really--I mean, I 
have no reason to oppose a Northeast refined or regional 
refined product reserve if it really made sense. It makes great 
political sense, because it shows we are doing something; but 
in a practical way, it doesn't make sense. It is very costly, 
it is very inefficient. It is not adding the capacity if you 
are not going to build new storage tanks.
    Mr. Burr. Mr. Chairman, could I----
    Mr. Barton. It would seem to me--it would seem to be a lot 
more productive to talk about things that really help, like let 
us try find a way to build more natural gas pipelines or 
refined petroleum pipelines. Then if we need to create some 
sort of an emergency distribution system where we allocate fuel 
oil to the homeowners that need it and have contracts for 
industrial customers, that might actually help a little bit.
    It might take a while to do. It is not easy getting the 
right of way to build these pipelines and things we need to do, 
things to increase the actual supply that can be distributed, 
as opposed to this idea that didn't make a lot of sense. And 
when the weather was a little bit better, you were honest 
enough to say that.
    Mr. Burr. Mr. Chairman, could I ask you to yield time, that 
you don't have, just for a clarification; and I would ask for 
Mr. Strickland's patience.
    It hasn't been that long since I left business, and the 
scenario that you just painted for me, I was in the wholesale 
distributing business where we relied on retailers to stock a 
certain amount of goods. And we were in seasonal products; if 
at any point we made a decision to have a greater stock because 
we anticipated a change in Mother Nature which might require 
more heating equipment or lawn equipment, we automatically saw 
a reduction in the stock of our retailers, and they became 100 
percent reliant on our increase in inventory versus an insecure 
filing on their part that they wouldn't have the products.
    My fear under the scenario that you just conveyed to me is 
that the Federal Government would guarantee some number of 
additional gallons of fuel oil, at which time the oil companies 
would say, therefore, we don't need even what we had stocked 
last year in our inventories; and in fact, if we have a winter 
that wipes us out, we have got the reserve that we go to and we 
are protected.
    I would only caution all of us that I think that that 
scenario forces an economic decision that will not have the end 
result that all of us would hope we achieve.
    And I thank the chairman for yielding.
    Mr. Barton. I want to say one thing before I recognize Mr. 
Strickland.
    One thing you said actually makes sense, if we are going to 
keep the strategic regional reserve on the books, and I don't 
have any opposition to that if that is what the administration 
wants to do. Changing the trigger mechanism does make sense; we 
should make it possible on a regional basis, if you have got a 
supply interruption like we had, whatever you have got on the 
books, if you have got a fuel source there that can be used, 
if--give the Secretary or the President the right to use it. I 
am all for that.
    But I am not convinced that the underlying idea makes any 
sense except in a political ``after the horse is out of the 
barn'' sense, well, we want to do this next time.
    Mr. Glauthier. May I comment, Mr. Chairman?
    Mr. Barton. Sure.
    Mr. Glauthier. I appreciate your comments and your support 
for that proposal. The proposal we have made is only one 
element on a whole range of things that need to be done. We 
would agree that this, by itself, would not be sufficient to 
take care of the problem; and so we have a lot of long-term 
actions that are needed to increase natural gas use in the 
East, do things that will help increase domestic production of 
oil and gas throughout the country, and we need to work 
together on a whole range of things.
    Mr. Barton. The next 2 to 3 months, when I am not trying to 
help put together an electricity bill, which the administration 
wants to do, we are going to do some hearings on long-term 
solutions or at least possible solutions.
    We have not had a debate in this country for a substantial 
amount of time on increasing domestic energy supply because we 
have had low energy prices. We have taken it for granted, and 
if there is a silver lining, what has happened in the last 3 to 
4 months, it is that the country's attention has been refocused 
on how vulnerable we are to foreign sources of energy imports; 
and it is not bad that we are focused on that.
    The gentleman from Ohio is recognized.
    Mr. Strickland. Thank you, sir.
    Mr. Deputy Secretary, I would like to direct your attention 
to page 15 of your testimony. You are talking about Worker's 
Compensation, and you say the bill has three parts, each 
addressing a specific group of workers eligible for 
compensation benefits.
    You mention on the first bullet the Beryllium Compensation 
Act; you say that eligible workers would receive reimbursement 
for perspective medical costs associated with illness and a 
portion of lost wages or have the option of receiving a single 
lump-sum benefit of $100,000.
    The second bullet lists the Paducah Employee's Exposure 
Compensation Act, addressing the Paducah, Kentucky, employees 
exposed to radioactive materials.
    The third bullet, a specific group of Oak Ridge, Tennessee, 
employees determined by an independent panel of occupational 
physicians to have illnesses due to a workplace exposure.
    Mr. Deputy Secretary, looking at that testimony, can you 
identify an obvious missing piece of that compensation plan?
    Mr. Glauthier. Well, I am not sure which piece you are 
referring to. The portion that comes to my attention is, of 
course, all the other facilities in our complex.
    Mr. Strickland. Mr. Deputy Secretary, what about the 
workers at the Piketon facility, a sister facility to the 
Paducah plant, a plant where my employees, my constituents, 
were exposed to the very same radioactive materials, plutonium 
and other materials, as were those employees at the Paducah, 
Kentucky, plant?
    Can you tell me, sir, any rational reason why this 
administration would choose to compensate the employees at 
Paducah and exclude the employees at Piketon, Ohio.
    Mr. Glauthier. That is the subject of the next paragraph of 
the testimony, which is the ongoing study under the direction 
of the National Economic Council at the White House, and which 
is making good progress.
    Mr. Strickland. Can you explain to me, though, because my 
plant is a sister plant to the Paducah plant and the very same 
materials were handled by these employees, why this 
administration would choose to provide a compensation package 
to the Paducah, Kentucky, employees and not to Piketon, Ohio, 
employees?
    Mr. Glauthier. Only because we did not want to delay the 
proposal for the Paducah workers at the time. We did not have 
the data at that time to be able to identify the extent of the 
exposure.
    Mr. Strickland. Can you tell me today that once the medical 
investigation is completed at the Piketon site, at the 
conclusion of that investigation are that my workers who were 
exposed to the materials, as were the workers at the Paducah 
plant, can you guarantee me today on behalf of this 
administration that my workers then will be included in this 
same compensation package?
    Mr. Glauthier. I think the commitment I can make to you 
today is that the administration is very actively engaged in 
exactly that question, that we hope to have a decision soon, 
and----
    Mr. Strickland. In all due respect, sir, what I am asking 
you to answer is if the conditions are identical to the 
conditions that existed at Paducah, if the materials that were 
handled were identical to the materials that were handled at 
Paducah, if that conclusion is reached by this investigation 
team that is currently carrying out an investigation, can you 
give me an assurance that if those conditions are identical, 
that this administration will ask for the same compensation 
package for my constituents?
    Mr. Glauthier. That is the logic, the rationale that the 
working group is working toward at the administration, and that 
premise is the working premise of the group.
    I can't give you a firmer guarantee, because, of course, a 
decision has to be made by the President and hasn't been made 
yet; but I think it will be made.
    Mr. Strickland. So it is the President's fault that this 
has not been done?
    Mr. Glauthier. He was not supplied or provided the options 
or the data on which to do it.
    Mr. Strickland. Well, I think the President should be 
provided with the options, because this is a serious matter; 
and I have been told that forces within the administration--the 
Department of Defense, the Department of Justice, OMB--are 
determined not to include my employees because they don't want 
to open up the possibility of litigation. DOD is concerned that 
employees at their sites may require the same kind of 
compensation package.
    And, you know, I understand those concerns, but I cannot 
justify to my constituents why they are being left out of a 
compensation package; and I want to tell you, I am glad the 
Paducah, Kentucky, employees are in fact being compensated. 
They deserve to be compensated. But the workers at the Piketon 
site deserve equal compensation. It is unacceptable that this 
kind of discrimination would occur.
    Mr. Glauthier. One of things I can tell you is that, 
earlier this week, I was in a meeting with representatives of 
the same agencies, the Defense Department and others you cited, 
and those agencies have dropped their opposition of the type 
you talked about, so that I think they are prepared now to 
acknowledge and to support some program that will go forward 
this way.
    Mr. Strickland. Can you give me some idea as to when the 
data may get to the President, so that he can fully participate 
in this decision?
    Mr. Glauthier. It will be in the next few weeks. The 
timing, as you know, from last fall was, this would be 
completed in the spring. We are now in the spring. I do expect 
this will be completed this spring. I cannot give you anything 
more precise than that.
    Mr. Strickland. Mr. Deputy Secretary, there was a hearing 
in the Senate this week; I am sure you are aware of that 
hearing. Two employees from my plant testified about serious 
injuries.
    Are you aware of that hearing?
    Mr. Glauthier. Yes.
    Mr. Strickland. I just wanted to draw your attention to 
page 259, volume 2, Paducah Employee's Exposure Compensation 
Act, and this is what it says.
    ``In recognition of the fact that Federal and contract 
workers at DOE's gaseous diffusion facility in Paducah, 
Kentucky, were exposed to plutonium and other highly 
radioactive materials, without their knowledge, as a result of 
the policy of reusing uranium in the production of plutonium.''
    It is no secret that the workers at the Piketon, Ohio, 
enrichment facility managed the same type of material and were 
exposed to plutonium and other highly radioactive materials 
without their knowledge and without adequate protection; and 
some of these employees now have serious health consequences. I 
visited one of those individuals weekend before last.
    It is beyond belief that this administration would come 
forth with a compensation package that would include employees 
at Oak Ridge, Tennessee, and in Paducah, Kentucky, and leave 
out the employees in Piketon, Ohio; it is just beyond belief.
    You know, I have asked--I don't hold you personally 
responsible for this; but I have asked over and over and over 
for an explanation, and what I get is double-talk. It is 
totally unacceptable, and I want you to carry this back to 
whoever you need to carry it back to, if it has to be the 
President that hears this or anyone else.
    This is unacceptable, and I cannot believe that my 
colleagues on both sides of the aisle will stand for this kind 
of injustice, and so I have expressed myself, I guess, as 
strongly as I can.
    Mr. Glauthier. Mr. Congressman, may I comment?
    Mr. Strickland. Yes.
    Mr. Glauthier. I do appreciate your comments. I will take 
those back and want to make it as clear as possible that the 
decision that was made last fall was not a policy decision that 
somehow workers at your site did not deserve to be compensated, 
but rather strictly on the basis of the available data, the 
available information.
    We had basis--we felt we could make a proposal, we could 
support legislation at the Paducah site. We did not have the 
same amount of data, we did not have the factual basis to go 
forward yet.
    So the question is, should we delay and do both later; or 
should we do one then and tell you, we were going to work on 
the other, which we are now trying to complete?
    Mr. Strickland. And I understand that, and I told members 
of this administration and representatives from OMB that if 
they would simply make a guarantee to me that if the 
investigation determined that my workers were exposed to these 
materials unknowingly, without adequate protection, that they 
would in fact be given the very same compensation package; and 
that guarantee has not been forthcoming, and I really, with all 
due respect, I don't think it has been forthcoming from you 
today.
    Maybe you can't make that decision sitting here, but 
someone in this administration needs to say to me that there 
will be no discrimination. I don't want my workers to get 
anything they don't need or deserve or aren't eligible for, but 
neither do I want them to be discriminated against for reasons 
that are--I don't know--irrational in my mind.
    Mr. Glauthier. Well, if I could go one step further, our 
goal is to try to be sure there is fair and equitable treatment 
to workers throughout our complex at all of the sites, because 
there may be health problems at other sites as well.
    Mr. Strickland. I understand. But my plant is a sister 
plant to the Paducah plant. They handle the same materials, the 
very same materials, and why you can't just say, they are going 
to be treated in an equitable fashion, is beyond me. It is just 
beyond me.
    Mr. Glauthier. It is our goal; I can't give you the 
guarantee, because I don't have that authority, but I can give 
you that statement of a goal. That is where we are trying to 
be.
    Mr. Strickland. Well, somebody in this administration ought 
to give that guarantee, and until they do, this issue is not 
going to go away.
    I have used up my time. Thank you.
    Mr. Norwood [presiding]. Thank you very much, Mr. 
Strickland. It is pretty clear to all of us that you have 
sensitized all of us to this issue, and I think you will find 
friends on both sides of the aisle.
    This chairman's chair feels pretty good, but I am actually 
going to be next because I was next here. Well, whatever, I am 
going next.
    Mr. Secretary, I have two or three little fast questions. 
How long have you been at DOE?
    Mr. Glauthier. Just completed 1 year of service in this 
position.
    Mr. Norwood. How many employees over there now? How many 
worldwide employees at DOE?
    Mr. Glauthier. The Federal workforce of DOE is about 
15,000, which includes the Federal Energy Regulatory Commission 
and the Power Marketing Administrations. When you deduce that 
the DOE itself, which is really running the programs, is just 
under 11,000 Federal employees, and about 110,000 contractor 
employees, other contractor employees, and then there are 
additional subcontractors.
    Mr. Norwood. How many in town here?
    Mr. Glauthier. I am not sure. About 5,000 of the Federal 
employees.
    Mr. Norwood. Did you drive to work this morning?
    Mr. Glauthier. Yes, sir.
    Mr. Norwood. Do you come in our own car or company car?
    Mr. Glauthier. I did.
    Mr. Norwood. Can I ask you what kind of car you have got?
    Mr. Glauthier. It is a U.S. car. It is a Buick made by the 
Auto Workers.
    Mr. Norwood. We are darn proud it is a U.S. car, I can tell 
you that.
    Did you drive over here to this meeting?
    Mr. Glauthier. No, I did not. I was driven in a Department 
car here.
    Mr. Norwood. That is what I mean, you came by automobile?
    Mr. Glauthier. Yes.
    Mr. Norwood. What kind of car was that.
    Mr. Glauthier. It is also a General Motors car. It is a 
Cadillac, actually.
    Mr. Norwood. Oh, my word. How nice.
    Mr. Glauthier. It was there before I got there.
    Mr. Norwood. Actually, in my other life I used to drive 
Cadillacs, too, before I got up here in this business. Those 
suckers use a little gas, but they are nice.
    My question really is, do you agree with Mark over here, he 
was here the other day--Mazur, is it not, Director of Office 
Policy. Mark agrees with the President, and I am just curious 
if you do; are you all right with $2 a gallon gas? The 
President thinks it is pretty good.
    Mr. Glauthier. I think the President is trying to do what 
he can to bring that price down.
    Mr. Norwood. It is confusing, because he said he thought it 
was pretty good. It is good for conservation; people can't 
afford it, so they won't drive.
    I want to know how you feel about that, just a personal 
question, particularly with that Cadillac. I am worried about 
that gas mileage.
    Mr. Glauthier. We did car pool. There were five of us in 
the car.
    Mr. Norwood. Very good. We can divide it up between five; 
that will help.
    Mr. Glauthier. The President's announcement last Saturday 
was a very specific set of activities to help bring prices 
down. He is very concerned about consumers and the public.
    Mr. Norwood. Well, what has me so concerned, he says--I am 
only quoting the man; I am not trying to put words in his 
mouth--so he says he is concerned about the fact that if this 
gas can cost a lot and none of us can afford it, think how 
great that is for the environment. That is what he says now. I 
know, what you say he is saying now, of course, after the 
truckers were in town and all that.
    Do you agree with the statement that he made 3 or 4 weeks 
ago, that ``Isn't this great, it is going to get to $2 a 
gallon?'' and I will give you the exact quote if you are 
offended by how I am paraphrasing it.
    Mr. Glauthier. Well, I think it is the characterization. 
There is one effect of high prices; that will be increased 
incentive for conservation. That is certainly true.
    Mr. Norwood. Secretary, I love you. Yes or no, do you agree 
with the President?
    Mr. Glauthier. I agree with the President.
    Mr. Norwood. You are okay with $2 a gallon of gas?
    Mr. Glauthier. I agree with whatever the President said.
    Mr. Norwood. Give me that exact quote so we can get it in 
the record, so I am sure I don't mistreat you in any way.
    [The information referred to follows:]

    Now, on the other hand, Americans should not want them to drop to 
$12 or $10 a barrel again, because that puts you in this roller coaster 
environment which is very destabilizing to the producing countries and 
not particularly good for our economy, and takes our mind off our 
business, which should be alternative fuels, energy conservation, 
reducing the impact of all this on global warming.

    Mr. Norwood. I want to now get to the rest of my questions. 
By the way, Volkswagen is low on gas mileage.
    I would like to direct the bulk of my questions, what time 
I have left today, toward the disposition of nuclear waste, and 
I assume you are familiar with the bill that came out of the 
House, the one my good friend from Michigan called a 
``turkey,'' which really he was bragging on it when he said 
that, because he knows how great that bird is. But my question 
to you, and this is for your opinion, will the President sign 
that bill?
    Mr. Glauthier. I think the indications are that the 
President is probably not going to sign that.
    Mr. Norwood. Could you tell us what is the problem now?
    Mr. Glauthier. Well, I think the most specific concern is 
the authorities that are taken away from EPA in establishing 
the right protective standards for groundwater.
    Mr. Norwood. How come we didn't work that out 3 years ago, 
when Mr. Dingell was helping us and many Democrats were helping 
us try to find a solution to the problem.
    Mr. Glauthier. Well, there has been an ongoing series of 
discussions over the years, and 3 years ago there were a lot of 
other issues on the table as well. We are now at the point 
where we are going to complete the science on this facility 
this year, this calendar year, and we are going to be in a 
position to actually see a recommendation finally go forward on 
the suitability of the site next June, June of 2001, to the 
President. We are finally at the stage after 1 year of being on 
the threshold of seeing a decision made on a permanent site.
    Mr. Norwood. Well, we don't want to rush into this, that is 
true.
    Would you mind just submitting in writing at some point in 
time, like in the next couple of weeks, exactly the reasons the 
administration can't sign that bill?
    Mr. Glauthier. Be happy to do that.
    [The following was received for the record:]

    The Administration has consistently and clearly stated its 
position on S. 1287, the Nuclear Waste Policy Amendments Act of 
2000, and similar legislation. The Administration opposes this 
bill because it would infringe upon and restrict the 
Environmental Protection Agency's existing authority to 
establish standards to protect public health and safety and the 
environment from radioactive releases. Therefore, it is 
unacceptable to the Administration. The bill passed by the 
Senate would be a step backwards because it would limit the 
Environmental Protection Agency's ability to exercise its 
existing authority until June 2001. The Agency's current intent 
is to issue a final standard during the summer of 2000 so that 
it will be in place well in advance of the Department of 
Energy's decision in 2001 on the suitability of the Yucca 
Mountain Site. As stated before, the Administration would 
oppose S. 1287 for these reasons and, if presented to the 
President, it would certainly invite a veto.

    Mr. Norwood. Why it is that the Department of Energy 
objects so to Yucca Mountain as an arms storage site?
    Mr. Glauthier. We would like to focus on this site as a 
potential permanent repository site and do not want to see 
anything that is going to deflect from our ability to complete 
that successfully. That has been one of the concerns in the 
past, if we preempt the decisions by forcing or making a 
premature decision on interim storage. Let us focus on the 
permanent decision first; let us make that, and then let us 
come back and explore what else might be done once that 
decision is in place.
    Mr. Norwood. You could hardly call any decision we are 
making premature, we have talked about this an awful long time. 
What precisely is the problem? I mean, isn't that a perfectly 
good place for interim storage?
    Do you know something the rest of us don't, that it 
wouldn't make a good place for interim storage?
    Mr. Glauthier. We have been concerned about interim storage 
anyplace. We are concerned about the funds being focused on 
completing the work for the permanent repository, the amount of 
money we have. We have not gotten the full budget requests that 
we have made the last couple of years. The amount of money we 
have is just enough to keep us on schedule for this decision to 
go to the President next June.
    We are concerned about the requirements to move on into 
licensing. Anything that we do that will move us onto another 
path, even to divert a portion of those funds, is going to have 
an impact on the ability to get this permanent repository 
finished.
    Mr. Norwood. What did you mean, that you are concerned 
about interim storage anyplace? What does that mean?
    Mr. Glauthier. Well, you mentioned Nevada. Our feeling is 
that if we were to construct an interim storage facility, a new 
facility anyplace, that would, I think, have the same concerns 
that I cite about diverting funds, of having an impact on the 
ability to complete the permanent repository on schedule.
    Mr. Norwood. Do we have pretty good science indicating 
Yucca Mountain is a good place?
    Mr. Glauthier. We have no show-stoppers at this point. This 
is all on track.
    Mr. Norwood. How is your science regarding interim storage 
in Aiken County, South Carolina; Burke County, Georgia? How are 
we going there? What does the science indicate about the 
interim storage that we do have going on.
    I think there are 70 other places around where there is 
interim storage going on. What is the science telling us about 
that?
    Mr. Glauthier. My comment a moment ago was with respect to 
a centralized interim storage facility. We do have materials 
stored at numerous sites throughout the country. We are 
concerned about that, and as you know, we have a proposal that 
we have offered to the utilities for the Federal Government to 
take responsibility for the fuel of those sites.
    Mr. Norwood. We made that proposal years ago didn't we when 
we started taxing Georgia ratepayers we made that deal a long 
time ago. In fact, we have spent a half a billion dollars, sent 
it up here to you for you to take responsibility.
    So we thank you making the offer to take care of our 
interim storage, but you know, you are supposed to do that now. 
I have forgotten how much, 7 billion in all has been sent over 
there to you to take care of that interim storage; and when you 
make a decision to play politics with Yucca Mountain, what you 
are doing is saying, in effect--at least a common-sense reading 
of it--it is perfectly fine to have interim storage in Aiken 
County, South Carolina--no sweat, no danger, we have got the 
science, but we have got to study Yucca Mountain one more time.
    Now, that is what you are saying when you are playing games 
with this Yucca Mountain thing that Democrats and Republicans, 
both sides of the aisle in both bodies in Congress, want you to 
get moving on. I want exact, detailed lists as to why, one more 
time, you have moved the goal post on Yucca Mountain.
    Will you do that for me, sir?
    Mr. Glauthier. We will be happy to submit the response. The 
schedule will run, it is the same schedule we have been on for 
the last 5 years at least, getting this suitability assessment 
done, based on the science.
    [The following was received for the record:]

    Since 1993, this Administration has been unwavering in its 
commitment to complete the rigorous world-class scientific and 
technical program necessary to evaluate the suitability of the 
Yucca Mountain site for a repository in a timely manner. We are 
nearing a decision, expected next year, on whether the site is 
suitable and should be recommended for development. The 
Administration's Fiscal Year 2001 request for the Program is 
critical to reaching these decisions and, if appropriate, 
proceeding forward to begin emplacement operations at Yucca 
Mountain in 2010. This has been the Department's published 
schedule since 1989.

    Mr. Norwood. We catch onto what you have been doing. I 
promise you, we catch onto how long you have been taking, and 
how much this is going on, and how we can never quite get there 
under this administration because when we come to an 
agreement--and I mean, between my pal, John Dingell, and this 
administration, we have got, well, we just can't quite sign 
that bill, we have got to do one more little thing here.
    And you know what, January will be here before you know it. 
It will get here quick, and I am telling you guys, you have an 
opportunity to do the right thing.
    Now, I know you can't make the man sign anything, but you 
darn sure ought to be making a legitimate argument as to why 
the interim storage in Burke County, Georgia, is not safe. And 
I have crawled through that hole in Yucca Mountain that we have 
spent I have forgotten how many billions on, and I don't blame 
them for not wanting it in Nevada. I wouldn't want it either. 
But that is where it needs to be, and you guys need to help get 
it moved.
    I see my time is up, Mr. Burr. I know you are just 
squirreling over there, big time. So with that, I will refer to 
you so you can catch a flight.
    Mr. Burr. I was just mesmerized by the gentleman's line of 
questions.
    Mr. Norwood. You get another 2 minutes.
    Mr. Burr. Clearly, you are only going to have the Chair for 
another 30.
    Mr. Norwood. I see that. Well, the chairman will back me 
up.
    Mr. Burr. Again, welcome, Mr. Secretary.
    One of the things we as Members of Congress try to do as we 
try to find solutions to others' problems--I would suggest to 
Mr. Strickland that the fastest way to address this problem in 
Ohio is to go to your local paper and tell them to hire the 
reporter from the Paducah paper, who put the pressure--public 
pressure on the Congress and on the Department of Energy to 
look at a horrendous problem in Kentucky, and ultimately, the 
Department of Energy responded to a number of different 
pressures.
    I hate to make it that simplistic, but it is not just 
coincidental that that one reporter who broke that story has 
led to a tremendous amount of work by this subcommittee and a 
reaction from the Department of Energy.
    Mr. Strickland. Can I respond to you?
    Mr. Burr. Please do.
    Mr. Strickland. If I hadn't run out of time, one of the 
questions I was going to direct toward the Deputy Secretary 
was, would the response have been different if the Washington 
Post had decided to run a series of stories on Piketon, Ohio, 
instead of Paducah, Kentucky, and I just did haven't time to 
direct that question.
    Thank you so much.
    Mr. Burr. We think a lot alike.
    Mr. Secretary, let me talk to you just very briefly about 
the deregulation and, specifically, the stakeholders group, 
because I think it is unclear as to exactly what the 
participation of the Department of Energy was and the 
organization and coordination of the group. So, if you will, 
tell me, was the Department of Energy the nucleus behind the 
creation of this stakeholder group to look at electricity 
deregulation?
    Mr. Glauthier. The Department has helped to facilitate the 
meetings of that stakeholder group. I don't believe that we 
actually created this stakeholder group.
    Mr. Burr. Did the DOE invite the attendees?
    Mr. Glauthier. We did to at least a couple of the meetings, 
yes.
    Mr. Burr. And what criteria did the Department use to 
determine who the invitees would be?
    Mr. Glauthier. It was based largely on an earlier meeting 
that the Secretary had had with a group of people who were 
interested in restructuring.
    Mr. Burr. So the Secretary picked them?
    Mr. Glauthier. It kind of grew out of that meeting.
    Mr. Burr. Did this stakeholders group ever meet at the 
Department of Energy or a Department of Energy facility?
    Mr. Glauthier. Yes, yes, they did.
    Mr. Burr. And was there any need for something like that? I 
show my ignorance. Is there any need for any type of public 
notification of that?
    Mr. Glauthier. No.
    Mr. Burr. Is there any reason that you are aware of as to 
why somebody from this committee--Republican, Democrat 
chairman, ranking member, wasn't included in the stakeholders 
group?
    Mr. Glauthier. I believe that it was a systematic attempt 
to try to form a group that would represent all points of view 
and make sure that everybody was represented.
    Mr. Burr. So it was just to get one point of view and 
consensus in one direction on deregulation?
    Mr. Glauthier. I think the idea was to try to get ideas 
formulated to get a more----
    Mr. Burr. Well, we tried that too and we got together, 
Republican and Democrat members, and Rich was kind enough to 
come. And it is through those meetings--our door was open; it 
was a pretty public process that we went through. We invited 
people from outside that we perceived to be experts to come in 
and educate us on what they thought the direction is that we 
should head, what the effects of certain things were.
    We worked through that process and were able to pass a 
subcommittee bill. It didn't have unanimous consent; it did 
have bipartisan support and was a very important first step to 
the process.
    Now, as we are going through that process, the Department 
of Energy has a parallel effort at the creation of a 
stakeholders group, that meets at the Department of Energy 
facilities, that was picked by the Secretary to try to 
determine the direction of electricity deregulation; and 
Congress wasn't invited to participate.
    Is there a problem with that as it relates to how you look 
at it?
    Mr. Glauthier. My understanding is that the staff of the 
committee were briefed on those meetings.
    Mr. Burr. Were they invited?
    Mr. Glauthier. No, I don't think they were.
    Mr. Burr. I mean, we invited Rich. I don't think----
    Mr. Barton. Would the gentleman yield?
    Mr. Burr. Be happy to.
    Mr. Barton. The subcommittee chairman wasn't briefed on 
these meetings; in fact, the subcommittee chairman found out 
about it through the rumor mill, so if you are briefing 
somebody up here, it is not on the majority side.
    Congressman Boucher and Hall are not here. Perhaps they 
were briefed, but I think if they had been briefed, they would 
have told me because we have got a very positive relationship. 
I don't mean to take the gentleman's time.
    Mr. Burr. I appreciate the chairman's clarification.
    This member was not briefed, as well, but this member felt 
like he knew everything that was going on at the stakeholders 
meeting, because it was reported in the press pretty 
aggressively--not necessarily that there was an open process 
going on, but that a group had gotten together to aspire to a 
certain direction for electricity deregulation.
    It is not that there is anything wrong with that, but I 
guess my question is, when Congress can have an open process, 
is it right for the Department of Energy to have such a closed 
and secretive process to try to achieve a policy decision?
    I mean, the last time I remember, this had happened on 
health care and America was not real happy about it; and I 
think if America knew about this, they wouldn't be real happy 
about it.
    Are you happy?
    Mr. Glauthier. If I might, Congressman, this effort that we 
have undertaken has been only to try to help provide more 
ideas, more dialog, going into the debate that was going to 
occur here in the Congress.
    Mr. Burr. The debate was taking place, Mr. Secretary. If 
you had wanted it to be in addition to the debate we were 
having, we would have been included. We have had over 30 public 
hearings, both sides of the aisle, in this Congress on 
electricity deregulation--not counting the open meetings that 
Rich sat in. And I think Rich--correct me if I'm wrong--we had 
White House representatives in those meetings. Just because 
they didn't agree with some of the points we talked about, we 
didn't ask them to leave, and we never locked the door, and we 
never excluded anybody who asked to come and testify.
    Now, granted, I never asked to come to the stakeholders 
meeting, but that was primarily because nobody asked me if I 
wanted to. Do you think that is wrong? Is it wrong what the 
Department of Energy did as it related to the stakeholder 
group?
    Mr. Glauthier. I think that the impression that has grown 
out of this is much stronger than what was intended at the 
time. The intention was to get ideas on the table that would go 
into a process that--we are not even expecting that this group 
of ideas will be the Department of Energy's position. It is, 
rather, other ideas that will go on in the discussion. We look 
forward to working with the subcommittee and the full committee 
now to continue the discussion and move legislation forward.
    Mr. Burr. I talked earlier about my business background. 
The way that you prepare to work with people is not to exclude 
them from your own internal processes; it is actually to reach 
out and include them, and I thought that was what the chairman 
was doing when Gingrich and others from the White House sat in 
the room and brought their ideas, had the opportunity to 
participate in the discussion, and the minority to bring people 
in as well, that might talk about what they were doing.
    Let me move on because my time is up. I just want to ask 
one last question.
    Mr. Barton. This will have to be the last question.
    Mr. Burr. Yes or no answer, do the current level of gas 
prices lessen the economic impact if we were to adopt the Kyoto 
protocol?
    Mr. Glauthier. I am not sure that I can give you a simple 
yes or no.
    Mr. Burr. Let me refresh your memory. One of the issues 
raised in the Senate was--when Kyoto was first proposed, and we 
agreed, and it came back to the Senate, and they began to have 
debates, we were at 88, 90 cents a gallon; and one of the 
specific points that was made was that if you adopted the Kyoto 
Protocol, the gas would go to $1.50.
    Now that gas is at $1.65, it is easier for people not to 
look at the gallon of gas as a reason and, in fact, the 
economic impact is less if gas is at $1.60 and Kyoto would only 
force it to $1.50.
    Mr. Glauthier. I am not sure, and I don't believe that the 
cost impact, economic impact of complying with the Kyoto Treaty 
would change. What it does is, it provides incentives for 
people to move to other strategies.
    Our cost estimates have been that complying with the Kyoto 
Treaty will be modest overall, that if it is done in a way that 
provides flexibility, emissions trading, things of that sort, 
that there will not be significant economic dislocation.
    The projection of the gas prices you referred to are not a 
part of the policy positions, but rather some people's 
projections of what might happen.
    Mr. Burr. Potential economic impacts of feeling. I thank 
you, Mr. Secretary.
    And I thank the chairman and Mr. Strickland for their 
patience, and I would yield back.
    Mr. Barton. Mr. Whitfield. And before you start Mr. 
Whitfield, do you have a plane to catch today?
    Mr. Whitfield. No, I yielded to Mr. Burr because he said he 
had a plane to catch.
    Mr. Barton. Well, Mr. Strickland has some additional 
questions, so I am going to stay here till about 12 to 12, and 
then I am going the turn the Chair over to you for such time as 
you may consume to ask questions, so that Deputy Secretary--you 
are recognized for 7 minutes now for questions.
    Mr. Whitfield. Mr. Chairman, thank you very much. And Mr. 
Strickland raised an interesting issue earlier, and obviously, 
I am delighted there is legislation affecting the Paducah 
plant. There is going to be more legislation prepared and there 
has been some prepared. But let me ask you this question.
    Considering the fact that we had Department of Energy sites 
all over the country manufacturing various weapons systems and 
material for bombs and so forth; and that employees throughout 
the country who, in many instances--were unaware of the types 
of material that they were dealing with and many of them have 
suffered and incurred serious illnesses as a result of that, 
don't you think that the U.S. Government should have a policy 
of adopting a program to compensate these employees for 
verified illnesses that they incurred while working at these 
plants?
    Mr. Glauthier. Yes, Congressman, we do and that really is 
the underlying position under the various proposals, the 
proposal we did offer in the fall and the ongoing work now to 
try to get a basis to act in some way that is equitable and 
fair to all the workers.
    Mr. Whitfield. And obviously, I think one reason it has 
taken a long time to even get to this point is because we are 
talking about World War II on and even prior to that. So for 
many, many years we have had all these people out there who 
have incurred various illnesses without any compensation 
whatsoever for this, unless there was some State Worker's Comp 
program. I know that one of the reasons, obviously, we don't 
have a Federal program has just been the cost.
    But I think as this administration and others step up to 
the plate to settle discrimination lawsuits, just like the $538 
million for discriminating against women at the United States 
Information Agency, the government is going to have to step up 
to the plate and say, at whatever the cost, we are responsible 
for this; you did not know what you were dealing with, and 
therefore we are going to have to make you whole.
    I think that we have an obligation to do that, and we are 
going to have to do it. Do you agree with that?
    Mr. Glauthier. Yes. And Secretary Richardson has tried to 
be very forceful in making that proposal. The legislation that 
we did propose for Paducah is premised exactly on that, and 
that is what we hope to continue to do as we move to Piketon 
and the other facilities.
    Mr. Whitfield. And we are in the process of preparing 
legislation that will affect a lot of sites around the country 
and people who have experienced these same things. So we look 
forward to working with you all on that as we go along.
    Now, Senator McConnell and I, as well as Congressman 
Strickland, passed legislation in the Congress that a 
conversion facility would be built at the Paducah and 
Portsmouth sites to take care of this uranium hexafluoride, and 
I noticed in this year's fiscal year 2000 budget there is $22.9 
million requested, and of that, I guess about half of it goes 
to maintain the cylinders in which this is stored and the other 
half is going to entice companies to give their proposals on 
bidding a facility.
    Now, it is my understanding that within the Department 
there are many people who are opposed to these conversion 
plants. Am I accurate in saying that, or could you tell me 
exactly what is happening over there as far as the policy of 
developing these conversion plants?
    Mr. Glauthier. Yes, thank you. I would be happy to do that.
    I think the confusion, perhaps, about these plants has been 
the question of what schedule they are on; and there was 
discussion last year, the middle of the year, about an 
accelerated schedule, and the proposal had even been RFP'd, had 
been drafted and circulated, which would have put things on a 
very fast track. And then, in reviewing it in the fall, we 
decided--and I led the process--to make the decision that that 
schedule was not going to be successful, that we were getting 
ahead of ourselves in a way that unfortunately has been too 
traditional in DOE projects. As a result, what we have done is 
to focus on characterizing the wastes, to be able actually to 
do samples of the materials in those containers, to be able to 
do environmental sampling of the sites as well, so we will have 
a solid basis, a technical basis for proceeding; to get the 
design process laid out in way that we will be able to then 
proceed, have the proposals go out, the request for proposals 
be issued by October 1 of this year, have those proposals come 
back in and be able to build these successfully, so we will 
have the technical basis, the design basis to be able to 
proceed to full design construction and operation that will be 
successful and will be able to be followed up.
    Our earlier path, I am afraid, was not going to have 
resulted in the success of the project.
    Mr. Whitfield. So there is no question that the technology 
is there to do this; is that correct?
    Mr. Glauthier. That is correct, although we do need to know 
exactly what constituents are in those tanks so--we found in 
some of the sampling recently, at least one case where there 
was something in one of the cylinders that was not expected, 
and it would require a slight change in the treatment 
technology that is used. So that is the kind of reasoning that 
has led us to this.
    Mr. Whitfield. Now, let us say that you do this sampling 
which is ongoing and you discover that there is contamination 
there, there are transuranics, whatever, that is pretty 
widespread.
    Is that going to change your opinion on whether or not you 
should proceed with conversion plants?
    Mr. Glauthier. No we don't expect that. We want to be sure 
that the treatment technologies and the sizing is done exactly 
right, so it will accommodate the range of actual technical 
levels of contamination levels that we will find. That is the 
focus.
    Mr. Whitfield. And when do you anticipate the sampling will 
be completed?
    Mr. Glauthier. Most of it, I think, will be completed by 
September. We have sampling going on right now. In some cases, 
it takes several months for the final results to be available.
    Mr. Whitfield. Now, and you said October 1 you would hope 
to have an RFP. Now, do you believe that 12 million is enough 
to entice a company to come forth and reply to an RFP or submit 
a proposal?
    Mr. Glauthier. I think it is the appropriate level to show 
that the Congress is supporting these projects on the track 
that is necessary, and that if Congress does appropriate those 
funds and supports this effort, that firms will come forward, 
yes.
    Mr. Whitfield. So if we added additional money to that, you 
would not be opposed to that?
    Mr. Glauthier. It depends on where it comes from, 
Congressman. Our concern is, of course, that we keep our other 
priorities in place, too.
    Mr. Whitfield. Okay.
    Now let me ask you, on your supplemental----
    Mr. Barton. Let this be the last question in this round. We 
have Congressman Markey here. I want to introduce him to the 
committee properly, and then I have to leave and go to the 
airport; but go ahead and ask this question.
    Mr. Whitfield. In your supplemental, there was $26 
million--so much for environmental cleanup, so much for medical 
monitoring which was approved. Now, it is my understanding that 
you had made another effort at some timeframe to obtain another 
$11.2 million for the Office of Worker and Community Transition 
Assistance, which was not granted by either the staff or 
whatever. Why did you not make that request within the $26 
million; that $11 million, why did you not add that on at the 
original time?
    Mr. Glauthier. I am not sure that I follow all the 
individual pieces that you have got. We do have another $12 
million that will be going to the program from funds that were 
in the memorandum of agreement that was executed at the time of 
the privatization of USEC.
    Mr. Whitfield. Well, it is my understanding that in the 
supplemental there is a $26 million supplemental for this 
cleanup and worker transition, and that people went to the 
Committee on Energy and Water and wanted another $11 million on 
top of that, and that that didn't make it through; and I was 
wondering why it was submitted in separate pieces.
    Mr. Glauthier. I believe the additional piece you are 
talking about is worker transition funding?
    Mr. Whitfield. Right.
    Mr. Glauthier. And what we have been trying to do there is 
to continue to look at what we can do to try to deal with the 
expected layoffs that will occur this summer. We have, as you 
know, additional money in the cleanup portions of the budgets 
in our environmental management budget. We have been trying to 
husband those resources so that that money can be used this 
summer to help bring about increased hiring at the same time 
that the other layoffs may occur. We expect probably on the 
order of 400 or more workers to be able to be hired this 
summer, and then if our request is funded, the 2001 request, by 
October, we would have an additional amount of hiring that 
could be done.
    Mr. Whitfield. Thank you, Mr. Chairman.
    Mr. Barton. Thank you. Mr. Whitfield, if you will begin to 
move this way to take the chair, I am going to have to run to 
the airport.
    The Chair would ask unanimous consent that all members not 
present have the requisite number of days to put their opening 
statements in the record if they so desire. Is there objection 
to that?
    Hearing none----
    Before I leave, Mr. Secretary, I want to point out that 
when we did this hearing last year the staffs on both sides 
sent written questions as follow-up and we had to close the 
official record without ever receiving replies to those written 
questions, and we kept the record open for 6 months. So we are 
going to be a little bit more pushy this year.
    We are going to send you the written questions within the 
next 2 weeks, and we would hope that you would get us written 
responses within the next 2 weeks after that. Do you think 
that----
    Mr. Glauthier. We will work to be as responsive as we can. 
We will do it quickly, and it is certainly not our intention to 
have things drag out. So we will work to try to do it that 
quickly.
    Mr. Barton. We won't send you questions with multiple 
choice answers. You will have to do some thinking to answer 
them, but hopefully they can be answered in the timeframe.
    And the other question I am going to ask that you really 
think about for the record: Mr. Norwood asked a number of 
questions on the nuclear waste fund. I am not going to repeat 
that, but we simply have to have a responsible solution from 
the administration on the funding profile. You know and I know 
we can't build the thing if we fund it around $400 million a 
year when, within the next 3 years, it is going to cost over a 
billion dollars a year for construction.
    I mean, you have got to--we will work with you on a 
bipartisan basis if the administration, Department of Energy, 
will present us with realistic funding requests for the 
depository. I mean, we just got--you know, it is beating a dead 
horse, but the House bill did that. The Senate bill doesn't do 
that.
    Having said that, we simply have to move forward on that.
    Mr. Glauthier. We do need to work together. Thank you.
    Mr. Barton. The Chair is going to recognize the 
distinguished gentleman from Massachusetts, who has joined Mr. 
Burr in observing a tieless subcommittee hearing. And I have 
already informed the distinguished gentleman from Massachusetts 
that I was less than enthusiastic about his idea of the refined 
product reserve in the Northeast, but I am sure, since he is 
going to get the last word, he will reinforce the need for that 
with our distinguished Deputy Secretary. Mr. Markey is 
recognized for 7 minutes; then we are going to have second 
round of questions that Mr. Strickland and perhaps Mr. 
Whitfield will want to continue.
    Thank you for being here.
    Mr. Markey. We kind of have this disagreement over what is 
a national emergency. The Sandinistas are coming up the Rio 
Grande toward Texas; that is a national emergency. If there is 
a hurricane in Texas and 20,000 people lose their homes and 
there is $200 billion worth of damage, that is a national 
emergency--not a regional emergency; the President declares it 
a national emergency.
    But if 67 nations get together at the prime minister or 
sheik level and decide to cutoff home heating oil supplies for 
the northeastern part of the United States, that is a regional 
emergency, not a national emergency.
    Now, the fact of the matter, that the rest of the Nation 
doesn't use home heating oil, is really not relevant. In fact, 
using that kind of an argument, if the lower 48 States were all 
cutoff, but Alaska had plenty of oil, you wouldn't have a 
national emergency by definition, because you hadn't hit every 
State. So, you know, some people look at this definition of 
``national emergency,'' and somehow or other you have to hit 
every single State or it is not a national emergency.
    Now, that, of course, would be a very narrow-minded view of 
defining what constituted a national emergency. That would 
actually be a pretty stupid way of dealing with it. So we think 
that the administration has the ability to deploy a regional 
petroleum reserve, using the existing language.
    Do you agree?
    Mr. Glauthier. Yes. The President in his announcement last 
Saturday asked the Congress to move forward and authorize a 
reserve, but also reserved the right to do it under existing 
authorities if the Congress doesn't act.
    Mr. Markey. Do you agree, as well, that the President has 
the ability to deploy the Strategic Petroleum Reserve? If 3 
million barrels of oil is removed from our energy supply, is 
that a national emergency? How many barrels would it take?
    Mr. Glauthier. That is a good question. I am not sure we 
have a specific number threshold.
    Mr. Markey. If I am paying $1.70 for gasoline and I should 
be paying only $1.20, have we reached a national emergency yet? 
Or is it $2 or $2.20? Is it 5 million barrels that they have 
withdrawn?
    When do you reach a point where it is a national emergency, 
or does the President always reserve the right to make that 
decision, notwithstanding what other parts of America might 
say? What is the testing mechanism?
    Mr. Glauthier. The only basis of the law currently, for 
acting to withdraw oil from the Strategic Petroleum Reserve is 
a supply interruption.
    Mr. Markey. Right. Do you consider, when four or five 
governments get together, who control the oil supply to our 
Nation, and at the government level, they decide to interrupt 
our supply in the normal course of, you know, international 
commerce, a supply interruption--and cutoff 3 million barrels?
    Mr. Glauthier. It is different from the kind of supply 
interruptions I think were anticipated originally. The question 
that would have to be addressed is, how long is the 
interruption going to last, and what are the steps that are 
possible to be taken?
    Mr. Markey. What were the original supply interruptions 
that we anticipated? I was here on the committee throughout the 
1970's, and what we were talking about was four or five 
governments going into a room and saying we are going to cutoff 
X amount of supply. There wasn't a war, in other words; it was 
strictly an economic decision. Is that what you are talking--
aren't we in the exact same circumstance we were in in the 
1970's?
    Mr. Glauthier. We are in a similar circumstance. The 
question is, how long will this last, will there be changes 
made? And of course, Secretary Richardson is doing everything 
he can to bring about an increase.
    We expect to revisit the question about the Strategic 
Petroleum Reserve after hearing next week's decision of OPEC 
and we understand in the context of that decision what kind of 
an interruption may be continuing.
    Mr. Markey. I guess the question that I am asking is that 
if the existing conditions continued is that, in and of itself, 
sufficient to justify an emergency being declared, if there 
were no changes of circumstances whatsoever?
    Mr. Glauthier. That has been discussed. There has not been 
a firm decision made within the administration on whether or 
not----
    Mr. Markey. How many barrels would it take? What is the 
range? Can you give us a range? Is 3 million not enough? How 
many would it have to be?
    Mr. Glauthier. We do not have any quantified criteria 
established.
    Mr. Markey. You can't define it, but you will know it when 
you see it? Well, that is good. I will tell you why that is 
good, because that means it is a no-standard standard; and that 
means that, you know, whatever the President decides becomes 
the standard in terms of what an emergency is and is, as a 
result, unchallengeable, since it is in the eye of the beholder 
if you don't have an absolute standard.
    Now--so would the President need us to authorize specific 
language in order to construct a regional reserve or can he do 
it without?
    Mr. Glauthier. Well, he has asked to have it authorized 
specifically, because I think that would be preferable to do 
this the right way. If the Congress does not act----
    Mr. Markey. If we don't act in the next couple of months, 
is he going to--does the administration plan on authorizing a 
process to be put in place so that the residents of the 
Northeast know for this coming winter that something will be in 
place?
    Mr. Glauthier. My expectation certainly is that we will act 
under existing authorities if the Congress does not proceed.
    Mr. Markey. Is it your intention to have something in place 
for this coming winter?
    Mr. Glauthier. Yes, it certainly is.
    Mr. Markey. Okay. How important is it to the administration 
that the Strategic Petroleum Reserve be authorized under EPCA?
    Mr. Glauthier. We are asking the Congress to act. As you 
know, the authorization expires at the end of the month. We 
would like to get a simple extension of a year, so we can work 
together on the broader questions about the reserve.
    Mr. Markey. What would be the consequences of a failure to 
reauthorize EPCA?
    Mr. Glauthier. It makes some of our other authorities--
potentially, it will be challenged.
    Mr. Markey. Do you think we should authorize the regional 
petroleum reserve in spite of EPCA?
    Mr. Glauthier. As part of?
    Mr. Markey. As part of reauthorization.
    Mr. Glauthier. What we are asking for right now is the 
simple extension.
    Mr. Markey. I am talking about the regional petroleum 
reserve now.
    Mr. Glauthier. I think we need to work together on language 
that will constitute the regional reserve.
    Mr. Markey. Would you like us to do that in EPCA?
    Mr. Glauthier. Yes, that would be the logical place to do 
it.
    Mr. Markey. Okay. Now, in his radio address on Saturday, 
the President said he did not want a regional petition reserve 
to have adverse environmental impacts. Could you detail for us 
what those potential environmental adverse impacts might be?
    Mr. Glauthier. Well, I think all the impacts that could be 
associated with the storage of products, heating oil products, 
our expectation is in order to do this quickly, we would use 
existing storage facilities so we would not be trying to site 
new facilities or construct new ones.
    Mr. Markey. What would be the issues surrounding the use of 
existing facilities?
    Mr. Glauthier. I think the transportation of the fuels, the 
storage and all, we want to be sure whatever facilities we use 
will meet all the appropriate standards and----
    Mr. Whitfield [presiding]. Your time has expired. If you 
would like to ask one more question and if the Secretary has 
time, we are going to do one more round.
    Mr. Markey. I have one final question. Then I thank you, 
Mr. Chairman. In your testimony and in Chairman's Barton's 
remarks, you endorsed the concept of new triggering language 
that would allow oil to be released from the regional reserve 
in response to a regional emergency or a price hike. Has the 
administration developed legislative language on this matter?
    Mr. Glauthier. We are working on it. We don't have the 
language actually developed now. But we are working on it and 
would like to get it done quickly.
    Mr. Markey. Could we get it--what is your time line for 
getting us language?
    Mr. Glauthier. We would like to work over the next couple 
of weeks to do this.
    Mr. Markey. We are moving to the EPCA reauthorization next 
week. Could you do it over the weekend like it was an emergency 
that had to be dealt with for the northeastern region of the 
country? Is there someone who could work over the weekend?
    Mr. Glauthier. Let's see if we could work with your staff 
to come up with the language next week.
    Mr. Markey. Just coming up with one sentence or two. We 
should be able how to do that before the markup.
    Mr. Whitfield. We appreciate your time this morning. If you 
have about 12, 14 more minutes, we would like to go around one 
more time.
    Mr. Glauthier. For you and Congressman Strickland, of 
course.
    Mr. Whitfield. Thank you so much.
    Mr. Markey. Any port in a storm.
    Mr. Glauthier. If it was the Congressman from 
Massachusetts.
    Mr. Whitfield. Mr. Strickland, why don't you proceed for 7 
minutes.
    Mr. Strickland. Thank you, sir. Mr. Deputy secretary, I 
stated in my opening remarks that I was having some questions 
this morning that may pertain to the privatization of the 
enrichment industry. And at this point I would like to ask if 
you know when the administration will be releasing its report 
to Congress addressing the effect of the Russian HEU agreement 
on domestic uranium mining, conversion, and enrichment 
industries, and the operation of the gaseous diffusion plants. 
This report is required under the 1996 Privatization Act and 
should be reported to Congress not later than December 31 of 
each year. I have yet to see such a report and I would expect 
the Department of Energy would contribute significantly to such 
a report. Can you tell me if such a report exists and when it 
is likely to be available?
    Mr. Glauthier. Well, I can report that the report you are 
talking about is in draft form. It is in review within the 
administration. I do not have a specific date when it will be 
out. But there is an active effort going on to try to complete 
that and get it to you soon.
    Mr. Strickland. Would you please do everything that you can 
under your influence and power to make sure that that report is 
available to us as expeditiously as possible. Since apparently 
it was due on December 31.
    I want to preface my question with some observations. We 
privatized our enrichment industry, and I believe the 
government received something approximating $1.9 billion out of 
that transaction. Shortly thereafter we were required to 
appropriate some $325 million as a direct result of 
privatization. And I am sure you understand what was involved 
in that dealing with the Russians and the natural uranium.
    In the meantime, either jobs have been lost or renounced 
totaling somewhere in the vicinity of 1,500 jobs at the two 
sites. The company, the privatized company, is now estimated to 
be worth somewhere in the range of $400 million. My 
understanding is they are carrying about a $500 million debt.
    I had a meeting with the national, or the Nuclear 
Regulatory Commission a couple of weeks ago. They told me that 
they are in the process of doing an analysis which they hope to 
have done by perhaps June in which they will try to determine 
if this private company is capable of doing what it must be do 
statutorily, and that is maintain a reliable and economic 
domestic source of enrichment services. They use the phrase 
Catch 22 when they were talking about their obligations to make 
this determination in order to continue to license this company 
to continue to operate this industry.
    Many people think that this industry is facing bankruptcy. 
I received a call this week from Dr. Thomas Neff, who purported 
to be the father of the arrangement with Russia to purchase 
materials from their nuclear arsenal. And I asked him point-
blank if he thought the best thing for the security of this 
Nation, both in terms of our national security and in terms of 
our economic security, was to think about the possibility of 
this government once again taking control of this industry, 
purchasing it back, however that could be done. To me that, in 
his considered opinion, that was what would likely be the best 
scenario.
    And I say that leading up to this question. Obviously this 
industry is in difficult straits. My office and other offices 
have been getting calls from individuals who are representative 
of the debt holders, there are questions about the, management 
of this industry, what its long-term strategies are. Given the 
importance of this industry to the energy needs of this Nation, 
and as I said a little earlier, some people think this industry 
would be worth more dead than alive, in other words, to 
actually cease the production of the enrichment facilities, 
sell off the contracts and God only knows, what would happen as 
a result, but what I want to ask you is what is the department 
doing to address the energy security needs of this Nation in 
terms of our enrichment capacity considering NRC's concerns? 
And I can tell you, I talked with Treasury within the last 
several days and much of what they said to me was their 
statutory responsibilities and obligations are pretty much over 
once privatization occurred. So I guess that leaves the 
responsibility in the hands of the Department of Energy. And 
what is the Department doing in terms of the vulnerability of 
this industry and trying to make sure that our security needs 
are attended to?
    Mr. Glauthier. Congressman, we do feel that we need a 
domestic source of enrichment capacity in this country. We need 
that for both commercial power plants, and of course for our 
national security needs in case we need to enrich material 
again for our weapons stockpile and for our naval reactors.
    The question on our mind in this regard is the long-term 
question for U.S. enrichment corporation. They have the 
facilities in your districts now, but those facilities are old, 
they are very energy intensive. The electricity contracts that 
they are operating under are going to expire here in a couple 
more years.
    So we have been concerned about what their long-term plan 
is going to be. Ever since they decided not to go forward with 
the Atlas technology, our technical staff and our nuclear 
energy program, our R&D program at the Department has been 
working with the U.S. enrichment program over the last few 
months to share with them the technical information from our 
work on different enrichment technologies. And the USEC people 
have been looking at whether or not they might use one of those 
technologies as a basis to go ahead and build a new production 
facility to help become more competitive in the long term. We 
want to support that. We hope that it will be possible for them 
to do something that maintains a competitive position in the 
marketplace, maintains a strong domestic capability, and uses 
the best technologies.
    Mr. Strickland. Mr. Whitfield, can I ask one quick follow 
up question?
    Mr. Whitfield. Sure.
    Mr. Strickland. And this is an effort to get your personal 
opinion. Given the history of privatization, given the fact 
that I was told and I think others were told that the reason 
the IPO privatization process was the most desirable because 
that was the most--that was the way to have the greatest 
guarantee that Atlas would be pursued as the next technology, 
given the fact that they are now coming back to the Department 
of Energy apparently to get DOE expertise in order to make this 
industry viable in the future, was privatization--has 
privatization benefited our Nation? Your judgment?
    Mr. Glauthier. Well, I think the operations of running an 
enrichment facility did not have to be necessarily 
governmental. It is not inherently governmental. The question 
now is can the operation, in fact, formulate a long-term 
strategy that will really be a solid business basis to proceed 
in the future. It has several things going on in it right now. 
It has still a good book of business. It has the inventory that 
it has available. It has a financial position on which it can 
move forward if it can make decisions on a technology basis and 
formulate a plan and really move ahead. I think the jury is 
out.
    We have go to watch and see where this will all actually 
go. We want to be as supportive as we can, and our technologies 
would be available to them or to any company here who would be 
interested in it.
    Mr. Strickland. One final follow-up. When we privatized the 
Avlos technology was valued at zero, my understanding is, in 
that transaction. They terminated the Avlos research and I may 
be wrong, but I have been informed that then they had a yard 
sale and sold off the lasers and other equipment, I guess, to 
their profit from an investment that had been valued at zero, 
but an investment that had consumed hundreds of millions of 
perhaps billions of tax dollars. It is--it is all so puzzling 
to me how these things have occurred. But I want to thank you 
for answering my questions and I thank you for being here.
    Mr. Whitfield. Thank you, Mr. Strickland. As you know, Mr. 
Glauthier, the Oversight and Investigations Subcommittee of 
Commerce will be having a hearing around April 13 on the 
financial condition of USEC, because all of us, I think, are 
committed to maintaining a domestic production source for 
enriched uranium for national security reasons. And I think 
that that will be at a time when we can look into this in more 
detail as well. And I am delighted that Mr. Strickland raised 
that issue at this hearing.
    I have just a couple of questions to close up here. As you 
know, both the Paducah and Portsmouth plants are scheduled to 
lose a total of 850 jobs, and we know that negotiations and 
discussions are going on with Bechtel Jacobs to move some of 
those over for environmental cleanup to minimize the loss of 
jobs. Those that will not have jobs through the transition will 
have a termination benefits package available for them. Have 
you, at this point, been able to determine how many employees 
you believe will not find a job at Bechtel Jacobs and will have 
to be terminated?
    Mr. Glauthier. I don't believe we have the exact numbers 
yet. We are still working actively with the organizations. We, 
as I said earlier, are hopeful that we will be able to increase 
our hiring in the environmental cleanup program by 400 perhaps 
as many as 500 workers this summer. We are doing everything we 
can to maximize that and to try to make sure we can use what 
capacities we have to try to help mitigate their situation.
    Mr. Whitfield. And do you have a date in which you think 
that decision will be made by?
    Mr. Glauthier. In terms of the numbers that you mean a 
better precision of numbers? I know the work is going on every 
week. It is a continuous effort. I am not sure if there is a 
target where we actually know. We will share the information 
with you as we proceed.
    Mr. Whitfield. In your testimony, you talked about the 
proposed deferral of $221 million in clean coal technology 
programs. Would you expand on that just a little bit.
    Mr. Glauthier. Yes. Because of the schedule, some of these 
plants or projects have not been able to proceed as rapidly as 
expected. This has been true for several years. A few years ago 
there were proposals to actually rescind funding that had been 
previously made available because the projects were behind 
schedule. What we have done instead is to propose deferring the 
funds so that they will still be available to complete the 
work, but they will be available in the years in which they are 
actually going to be needed.
    Mr. Whitfield. But the department is still committed to 
researching and pursuing clean coal technology.
    Mr. Glauthier. That is correct. And we are supporting the 
projects that are still underway. I believe there are five that 
are under construction now and two more that will still need 
funding.
    Mr. Whitfield. Okay. And would you provide us a list of 
those five. I mean I am not aware of where those five sites are 
and I would like to know.
    [The following was received for the record:]

    The Department of Energy's Clean Coal Technology Demonstration 
Program currently has five projects that have recently initiated 
construction or are preparing for the initiation of construction 
activities. These five projects and their locations are summarized 
below:

------------------------------------------------------------------------
                  Project                             Location
------------------------------------------------------------------------
JEA Large-Scale CFB Combustion              Jacksonville, Florida
 Demonstration Project.
Kentucky Pioneer Energy IGCC Demonstration  Trapp, Kentucky
 Project.
McIntosh Unit 4A PCFB Demonstration         Lakeland, Florida
 Project.
McIntosh Unit 4B Topped PCFB Demonstration  Lakeland, Florida
 Project.
Clean Power From Integrated Coal/Ore        Vineyard, Utah
 Reduction (CPICOR).
------------------------------------------------------------------------

    Of these five projects, only the Kentucky Pioneer Energy and CPICOR 
projects have remaining funding requirements.

    Mr. Glauthier. One of the two, of course, is in Kentucky.
    Mr. Whitfield. That makes it even better.
    You have testified that DOE intends to meet its schedule 
for the Yucca Mountain repository. In making that statement and 
in the fiscal year 2001 budget submission, which radiation 
standard are you assuming will apply to the repository, the 
standard proposed by the NRC or the standard proposed by EPA?
    Mr. Glauthier. Well, of course that effort is continuing on 
to come to a final standard. We are evaluating the impacts of 
both the standards and assuming that we could accommodate, 
whichever of those ends up being the final standard.
    Mr. Whitfield. Now EPA is to issue their final standard 
later this year, and the Senate bill delays issuance of that 
final rule until June of 2001. In your opinion, what is the 
impact of that delay on your schedule?
    Mr. Glauthier. We will still proceed ahead with our 
analysis to complete the scientific assessments in December of 
this year so that we will have the report which will be the 
basis for the hearings that will take place then in the first 
half of next year in order to make a recommendation to the 
President in June.
    Mr. Whitfield. Okay. Well, Mr. Secretary, I would thank you 
so much for your time this morning and for your staff. We 
genuinely appreciate you being here. I think this was a useful 
hearing which provided some important information. I know that 
all of us look forward to working with you in the future. Thank 
you very much. This hearing is concluded.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

                                       Department of Energy
                                                  September 8, 2000
The Honorable Joe Barton
Chairman
Subcommittee on Energy and Power
Committee on Commerce
U.S. House of Representatives
Washington, DC 20515
    Dear Mr. Chairman: On March 24, 2000, T.J. Glauthier, Deputy 
Secretary of Energy, testified regarding the Department's Fiscal Year 
2001 Budget. On July 25, 2000, we sent you the answers to 32 questions.
    Enclosed are the remaining answers to the questions submitted by 
you and Representatives Ehrlich and Wilson.
    Also enclosed is the remaining insert submitted by Representative 
Whitfield to complete the hearing record.
    If we can be of further assistance, please have your staff contact 
our Congressional Hearing Coordinator, Barbara Barnes at (202) 586-
6341.
            Sincerely,
                                             John C. Angell
   Assistant Secretary, Congressional and Intergovernmental Affairs
Enclosure
[GRAPHIC] [TIFF OMITTED] T7434.001

[GRAPHIC] [TIFF OMITTED] T7434.002

[GRAPHIC] [TIFF OMITTED] T7434.003

[GRAPHIC] [TIFF OMITTED] T7434.004

[GRAPHIC] [TIFF OMITTED] T7434.005

[GRAPHIC] [TIFF OMITTED] T7434.006

[GRAPHIC] [TIFF OMITTED] T7434.007

[GRAPHIC] [TIFF OMITTED] T7434.008

[GRAPHIC] [TIFF OMITTED] T7434.009

[GRAPHIC] [TIFF OMITTED] T7434.010

[GRAPHIC] [TIFF OMITTED] T7434.011

[GRAPHIC] [TIFF OMITTED] T7434.012

[GRAPHIC] [TIFF OMITTED] T7434.013

[GRAPHIC] [TIFF OMITTED] T7434.014

[GRAPHIC] [TIFF OMITTED] T7434.015

[GRAPHIC] [TIFF OMITTED] T7434.016

[GRAPHIC] [TIFF OMITTED] T7434.017

[GRAPHIC] [TIFF OMITTED] T7434.018

[GRAPHIC] [TIFF OMITTED] T7434.019

[GRAPHIC] [TIFF OMITTED] T7434.020

[GRAPHIC] [TIFF OMITTED] T7434.021

[GRAPHIC] [TIFF OMITTED] T7434.022

[GRAPHIC] [TIFF OMITTED] T7434.023

[GRAPHIC] [TIFF OMITTED] T7434.024

[GRAPHIC] [TIFF OMITTED] T7434.025

[GRAPHIC] [TIFF OMITTED] T7434.026

[GRAPHIC] [TIFF OMITTED] T7434.027

[GRAPHIC] [TIFF OMITTED] T7434.028

[GRAPHIC] [TIFF OMITTED] T7434.029

[GRAPHIC] [TIFF OMITTED] T7434.030

[GRAPHIC] [TIFF OMITTED] T7434.031

[GRAPHIC] [TIFF OMITTED] T7434.032

[GRAPHIC] [TIFF OMITTED] T7434.033

[GRAPHIC] [TIFF OMITTED] T7434.034

[GRAPHIC] [TIFF OMITTED] T7434.035

[GRAPHIC] [TIFF OMITTED] T7434.036

[GRAPHIC] [TIFF OMITTED] T7434.037

[GRAPHIC] [TIFF OMITTED] T7434.038

[GRAPHIC] [TIFF OMITTED] T7434.039

[GRAPHIC] [TIFF OMITTED] T7434.040

[GRAPHIC] [TIFF OMITTED] T7434.041

[GRAPHIC] [TIFF OMITTED] T7434.042

[GRAPHIC] [TIFF OMITTED] T7434.043

[GRAPHIC] [TIFF OMITTED] T7434.044

[GRAPHIC] [TIFF OMITTED] T7434.045

[GRAPHIC] [TIFF OMITTED] T7434.046

[GRAPHIC] [TIFF OMITTED] T7434.047

[GRAPHIC] [TIFF OMITTED] T7434.048

[GRAPHIC] [TIFF OMITTED] T7434.049

[GRAPHIC] [TIFF OMITTED] T7434.050

[GRAPHIC] [TIFF OMITTED] T7434.051

[GRAPHIC] [TIFF OMITTED] T7434.052

[GRAPHIC] [TIFF OMITTED] T7434.053

[GRAPHIC] [TIFF OMITTED] T7434.054

[GRAPHIC] [TIFF OMITTED] T7434.055

[GRAPHIC] [TIFF OMITTED] T7434.056

[GRAPHIC] [TIFF OMITTED] T7434.057

[GRAPHIC] [TIFF OMITTED] T7434.058

[GRAPHIC] [TIFF OMITTED] T7434.059

[GRAPHIC] [TIFF OMITTED] T7434.060

[GRAPHIC] [TIFF OMITTED] T7434.061

[GRAPHIC] [TIFF OMITTED] T7434.062

[GRAPHIC] [TIFF OMITTED] T7434.063

[GRAPHIC] [TIFF OMITTED] T7434.064

[GRAPHIC] [TIFF OMITTED] T7434.065

[GRAPHIC] [TIFF OMITTED] T7434.066

[GRAPHIC] [TIFF OMITTED] T7434.067

[GRAPHIC] [TIFF OMITTED] T7434.068

[GRAPHIC] [TIFF OMITTED] T7434.069

[GRAPHIC] [TIFF OMITTED] T7434.070

[GRAPHIC] [TIFF OMITTED] T7434.071

[GRAPHIC] [TIFF OMITTED] T7434.072

[GRAPHIC] [TIFF OMITTED] T7434.073

[GRAPHIC] [TIFF OMITTED] T7434.074

[GRAPHIC] [TIFF OMITTED] T7434.075

[GRAPHIC] [TIFF OMITTED] T7434.076

[GRAPHIC] [TIFF OMITTED] T7434.077

[GRAPHIC] [TIFF OMITTED] T7434.078

[GRAPHIC] [TIFF OMITTED] T7434.079

[GRAPHIC] [TIFF OMITTED] T7434.080

[GRAPHIC] [TIFF OMITTED] T7434.081

[GRAPHIC] [TIFF OMITTED] T7434.082

[GRAPHIC] [TIFF OMITTED] T7434.083

[GRAPHIC] [TIFF OMITTED] T7434.084

[GRAPHIC] [TIFF OMITTED] T7434.085

[GRAPHIC] [TIFF OMITTED] T7434.086

[GRAPHIC] [TIFF OMITTED] T7434.087

[GRAPHIC] [TIFF OMITTED] T7434.088

</pre></body></html>
